<html>
<title> - THE ADMINISTRATION'S FISCAL YEAR 2008 RESEARCH AND DEVELOPMENT BUDGET PROPOSAL</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                 THE ADMINISTRATION'S FISCAL YEAR 2008
                        RESEARCH AND DEVELOPMENT
                            BUDGET PROPOSAL

=======================================================================

                                HEARING

                               BEFORE THE

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 14, 2007

                               __________

                            Serial No. 110-5

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science



                    U.S. GOVERNMENT PRINTING OFFICE
33-106                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001
                                 ______

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              KEN CALVERT, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
NICK LAMPSON, Texas                  FRANK D. LUCAS, Oklahoma
GABRIELLE GIFFORDS, Arizona          JUDY BIGGERT, Illinois
JERRY MCNERNEY, California           W. TODD AKIN, Missouri
PAUL KANJORSKI, Pennsylvania         JO BONNER, Alabama
DARLENE HOOLEY, Oregon               TOM FEENEY, Florida
STEVEN R. ROTHMAN, New Jersey        RANDY NEUGEBAUER, Texas
MICHAEL M. HONDA, California         BOB INGLIS, South Carolina
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               VACANCY
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio


                            C O N T E N T S

                           February 14, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Bart Gordon, Chairman, Committee on 
  Science and Technology, U.S. House of Representatives..........    11
    Written Statement............................................    13

Statement by Representative Ralph M. Hall, Minority Ranking 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................    14
    Written Statement............................................    15

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    16

Prepared Statement by Representative Russ Carnahan, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    17

Prepared Statement by Representative Harry E. Mitchell, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    18

Prepared Statement by Representative Vernon J. Ehlers, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    18

Prepared Statement by Representative Randy Neugebauer, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    19

                                Witness:

Dr. John H. Marburger, III, Director, Office of Science and 
  Technology Policy
    Oral Statement...............................................    19
    Written Statement............................................    21
    Biography....................................................    27

Discussion.......................................................    28

              Appendix: Answers to Post-Hearing Questions

Dr. John H. Marburger, III, Director, Office of Science and 
  Technology Policy..............................................    48


 THE ADMINISTRATION'S FISCAL YEAR 2008 RESEARCH AND DEVELOPMENT BUDGET 
                                PROPOSAL

                              ----------                              


                      WEDNESDAY, FEBRUARY 14, 2007

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:12 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chairman of the Committee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                 The Administration's Fiscal Year 2008

                        Research and Development

                            Budget Proposal

                      wednesday, february 14, 2007
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Wednesday, February 14, 2007, the Committee on Science and 
Technology will hold a hearing to consider the Administration's 
proposal for federal research and development funding for Fiscal Year 
2008 (FY 2008). The Committee will hold another, separate hearing to 
examine the President's proposed budget for NASA (therefore, only brief 
analysis is provided for the NASA budget proposal). Subcommittees also 
will hold additional hearings regarding proposed agency budgets.

2. Witness

Dr. John H. Marburger, III is Director of the Office of Science and 
Technology Policy (OSTP). The mission of the office is to serve as a 
source of scientific and technological analysis and judgment for the 
President with respect to major policies, plans, and programs of the 
Federal Government. Dr. Marburger also co-chairs the President's 
Committee of Advisors on Science and Technology (PCAST) and supports 
the President's National Science and Technology Council (NSTC).

3. Overview

    The President released his proposed FY 2008 budget on February 5. 
The budget proposes $143 billion in federal research and development 
(R&D) funding, a 1.4 percent increase over the anticipated FY 2007 
level.\1\ The budget proposes increases for research programs within 
the American Competitiveness Initiative (ACI), as well as human space 
exploration, but proposes decreases in much of the remaining non-
defense federal research and development portfolio.
---------------------------------------------------------------------------
    \1\ Unless otherwise noted, FY 2007 figures are based on the House-
passed version of H.J. Res. 20.
---------------------------------------------------------------------------
    The FY 2008 budget would provide $11.4 billion for research within 
programs that are part of the ACI--the National Science Foundation, 
Department of Energy Office of Science, and National Institute of 
Standards and Technology lab research and construction accounts.
    However, outside of the ACI programs, research and development for 
many agencies and programs would be cut compared to the FY 2007 level. 
For example, the following reductions are proposed in the FY 2008 
budget:

        <bullet>  DOE Energy R&D (excluding Office of Science)--$133 
        million or 9.2 percent

        <bullet>  National Institutes of Health--$325 million or 1.1 
        percent

        <bullet>  Department of Agriculture R&D--$245 million or 10.9 
        percent

        <bullet>  Department of Homeland Security--$15 million or 1.6 
        percent

        <bullet>  Environmental Protection Agency--$20 million or 3.5 
        percent

        <bullet>  NOAA--$57 million or 9.5 percent

    If research alone is considered separate from development 
activities, the President also is proposing significant cuts to many 
programs. Overall, federal basic and applied research would be cut by 
two percent compared to FY 2007, and in real terms, federal research 
would decrease for the 4th year in a row. For example, the FY 2008 
budget proposes the following reductions in basic and applied research:

        <bullet>  NASA--$16 million, or 1.1 percent

        <bullet>  National Institutes of Health--$356 million, or 1.3 
        percent

        <bullet>  Department of Agriculture--$206 million or 10.5 
        percent

        <bullet>  NOAA--$42 million, or 8.3 percent

        <bullet>  Environmental Protection Agency--$20 million, or 4.3 
        percent

    In addition, according to an analysis by the American Association 
for the Advancement of Science (AAAS), federal research investments 
also are declining as a share of GDP, while other nations' investments 
are rising. Federal research investments have failed to match other 
nations, especially in Asia, government research is climbing 
dramatically. China and South Korea, for example, have committed to 
increase government research investments by 10 percent annually.
    Below is more detailed analysis of how several agencies and 
programs within the jurisdiction of the Committee on Science and 
Technology fared in the President's budget proposal.

4. Selected Agency Analysis

National Aeronautics and Space Administration (NASA)\2\
---------------------------------------------------------------------------
    \2\ Additional information on specific budget increases and 
decreases, as well as policy issues raised by the FY 2008 budget 
request, will be provided in the hearing charter for the upcoming 
hearing on NASA's FY 2008 budget request.
---------------------------------------------------------------------------
    The FY 2008 budget request for NASA is $17.3 billion, $1.1 billion 
above the level in H.J. Res. 20. However, this increase would mostly 
fund human space exploration programs, specifically the International 
Space Station, Crew Launch Vehicle, and Crew Exploration Vehicle.
    In the Science account, proposed funding for FY 2008 (and through 
FY 2011) would be constrained to grow at one percent per year. The 
impact on specific program areas would vary--for example, funding for 
Astrophysics (including the Hubble telescope) would decline from $1.6 
billion to $1.3 billion over the FY 2008-11 period, while Earth Science 
funding would grow slightly between FY 2008 and FY 2009 and then 
decline for the rest of the decade to a level of $1.4 billion in FY 
2012. Planetary Science would grow from $1.4 billion in FY 2008 to $1.7 
billion in FY 2012.
    Aeronautics funding would decrease by $336.4 million from the level 
of $890.4 million in FY 2007. And, education funding would decline from 
the FY 2007 request level of $167.4 million to $149.6 million by FY 
2012.
    Funding for the Exploration initiative would increase from $3.9 
billion in FY 2008 to $9.1 billion in FY 2012. Funding on Space 
Operations (Shuttle, International Space Station, Space Communications, 
and Launch Services) would decline from a level of $6.8 billion in FY 
2008 to a level of $3.0 billion in FY 2012.
Department of Energy
    The FY 2008 Administration request for the entire Department of 
Energy is $24.3 billion. Of that, approximately $7.5 billion is 
dedicated to non-defense activities in Science, Energy Efficiency and 
Renewable Energy, Nuclear Energy, Fossil Energy, and Electricity. The 
remaining $16.75 billion is divided between the nuclear weapons 
mission, environmental cleanup and radioactive waste. Appearing for the 
first time in the President's budget is the Innovative Technology Loan 
Guarantee Program created in the Energy Policy Act of 2005. This 
program would provide loan guarantees for advanced technology projects 
that avoid, reduce, or sequester air pollutants or anthropogenic 
emissions of greenhouse gases, and have a reasonable prospect of 
repaying the principal and interest on their debt obligations.
            Office of Science
    As part of the President's American Competitiveness Initiative 
(ACI), the FY 2008 budget request for the DOE Office of Science is $4.4 
billion. This represents an increase of $602 million, or 15.9 percent 
over the FY 2007 level.
    The FY 2008 request for Basic Energy Sciences (BES) is $1.5 
billion, an increase of $301 million or 25 percent more than the FY 
2007 level. As the largest program within the Office of Science, BES 
conducts research primarily in the areas of materials sciences and 
engineering.
    The budget would provide $340 million for the Advanced Scientific 
and Computing Research (ASCR), an increase of $106 million or 45 
percent over the FY 2007 level. This includes funding to continue 
upgrading the Leadership Class Facility (LCF) at Oak Ridge National 
Lab, making it the world's largest civilian high performance computing 
system.
    Biological and Environmental Research (BER) would receive $532 
million, an increase of $70 million or 15 percent over the FY 2007 
level. In addition to the role of BER in areas such as genomics and 
climate change research, the FY 2008 request supports the startup of 
three bioenergy research centers to investigate biological processes 
for developing and deploying large scale, environmentally sound 
biotechnologies to produce ethanol from cellulosic biomass (plant 
materials).
    The FY 2008 funding request for High Energy Physics (HEP) is $782.2 
million, which is $50 million or seven percent more than the FY 2007 
level. This program funds fundamental research in elementary particle 
physics and accelerator science and technology.
    Fusion Energy Sciences (FES) receives $428 million, a substantial 
increase ($143 million or 40 percent) over the FY 2007 level. Of this 
amount, $160 million would be dedicated to support the U.S. role in the 
International Thermonuclear Experimental Reactor (ITER). Finally, 
Nuclear Physics (NP) would receive $471 million, an increase of $75 
million (19 percent) over FY 2007.
            Energy Efficiency and Renewable Energy (EERE)
    The Office of Energy Efficiency and Renewable Energy (EERE) would 
increase slightly by $42.6 million (four percent) compared to FY 2007. 
However, the budget includes large cuts for the National Renewable 
Energy Laboratory (down 74 percent compared to FY 2007); Weatherization 
and State Energy Programs (down 37 percent); Industrial Technologies 
Program (down 20 percent); and the Federal Energy Management Program 
(down 14 percent), as well as the elimination of some renewable energy 
R&D programs.
    Biomass and Biorefinery Systems would receive $179 million (almost 
double compared to the FY 2007 level). This very large increase is 
intended to address the President's goal of making cellulosic ethanol 
cost-competitive by 2012 and also enable a supply of 35 billion gallons 
of alternative fuels annually in accordance with the Twenty in Ten 
program--a reduction of US gasoline usage by 20 percent in the next ten 
years--as outlined in the 2007 State of the Union Address.
    Solar energy would receive $148 million, $64.6 million or 75 
percent more than in FY 2007. This level supports the President's Solar 
America Initiative (SAI), which seeks to make electricity from 
photovoltaic cells cost competitive by 2015. Wind energy would be 
slated for $40 million, approximately level with FY 2007 funding. As in 
the 2007 budget request, the Administration would eliminate R&D in 
Geothermal power, despite a comprehensive study released in January by 
the Massachusetts Institute of Technology that found that the large 
amounts of heat in stored in the Earth's crust could supply a 
substantial portion of the United States' future electricity 
requirements with minimal environmental impact and probably at 
competitive prices. Hydropower R&D would also be eliminated.
    The FY 2008 request for Vehicle Technologies R&D, which includes 
funding to spur the development of technologies for plug-in hybrid 
vehicles, would be reduced by $6.4 million or four percent. Building 
Technologies would rise by 25 percent compared to the FY 2007 level to 
$86.4 million. However, the Industrial Technologies program, which aims 
to reduce the energy intensity of the U.S. economy by improving the 
energy efficiency of the Nation's industrial sector, would decrease by 
20 percent ($11 million).
            Office of Nuclear Energy
    Nuclear Energy (NE) receives $568 million for research and 
development, with a large portion of that dedicated to the Global 
Nuclear Energy Partnership (GNEP). For the Nuclear office, this 
represents an increase of $220 million, or 64 percent over the FY 2007 
request, and $347 million (157 percent) above the FY 2006 
Congressionally appropriated amount.
    The Administration unveiled the Global Nuclear Energy Partnership 
(GNEP) in 2006 as a plan to develop advanced, proliferation-resistant 
nuclear fuel cycle technologies that would maximize the energy 
extracted from nuclear fuels and minimize nuclear waste. GNEP has been 
very controversial in Congress, with little support in the House where 
only token funding has been approved. For instance, the Administration 
requested approximately $250 million in FY 2007 for GNEP (through the 
Advanced Fuel Cycle Initiative--AFCI). If the CR maintains FY 2006 
appropriated levels, GNEP will only receive roughly $80 million for FY 
2007. Nonetheless, the President's FY 2008 request for GNEP is $395 
million.
    Chief among the concerns about GNEP is the cost of implementing the 
program (up to $40 billion) and then deploying a fleet of the required 
technologies on a commercial scale (more than $200 billion), and 
whether such a program warrants the costs. There are also issues with 
premature selection of technologies before the completion of a full 
system-wide analysis of what would be required. Many are concerned that 
DOE has not adequately demonstrated an ability to carry out large scale 
construction and operation of such a project without major cost and 
schedule overruns.
    Finally, the Nuclear Power 2010 program also would receive a 
considerable boost with an FY 2008 request of $114 million, which is 
more than double the amount provided in FY 2007. The increase is 
intended to go to continue activities in new reactor designs and 
licensing applications with the Nuclear Regulatory Commission to 
support an industry decision to build a new power plant by 2009.
            Fossil R&D
    Fossil Energy R&D would receive $557 million in FY 2008, a two 
percent increase compared to FY 2007. Funding increases would go 
exclusively to coal R&D, including the Clean Coal Power Initiative 
(which aims to develop technologies that will increase efficiency of 
coal-fired power plants, reduce mercury and NOX emissions, and improve 
carbon capture and sequestration) and the FutureGen project to 
demonstrate near-zero atmospheric emissions electricity production.
    The FY 2008 budget once again proposes to eliminate all oil and gas 
R&D, including $50 million in direct spending (mandated in the Energy 
Policy Act of 2005) for unconventional onshore and offshore natural gas 
exploration technologies that would go largely to smaller independent 
oil and gas producers.
            Innovative Technology Loan Guarantee Program (LGP)
    The FY 2008 budget proposes $8.4 million to fund the Office of Loan 
Guarantees, which will administer the Innovative Technology Loan 
Guarantee Program (LGP). The program was established in the Energy 
Policy Act of 2005 to provide loan guarantees for renewable energy, 
energy efficiency, clean coal, advanced nuclear, and other innovative 
energy projects. The FY 2008 budget request assumes a loan volume of $9 
billion for such projects. Of this, $4 billion is set aside for large 
electric power generation projects such as advanced nuclear and coal 
gasification with carbon sequestration. An additional $4 billion is set 
aside to promote biofuels and clean transportation fuels, and $1 
billion for new technologies in electricity transmission and renewable 
power systems. The House CR for FY 2007 provides $7 million for the 
administration of the program.
National Science Foundation
    The National Science Foundation is the primary source of federal 
funding for non-medical basic research conducted at colleges and 
universities and serves as a catalyst for science, technology, 
engineering, and mathematics (STEM) education reform at all levels. NSF 
is one of the research agencies that the President, in his 2006 State 
of the Union Address, proposed to double over ten years as part of the 
American Competitive Initiative (ACI).
    The FY 2007 budget request, which called for a $439 million (7.9 
percent) increase over the FY 2006 budget, was the first to reflect the 
ACI. H.J. Res. 20, the House-passed CR, would fund NSF at $5.9 billion 
in FY 2007, a $335 million (6.0 percent) increase from FY 2006, but a 
$105 million (1.7 percent) decrease from last year's request. 
Specifically, H.J. Res. 20 appropriates $4.7 billion for the Research 
and Related Activities (R&RA) account, and remains silent on the rest 
of the NSF accounts, signaling a continuation of FY 2006 funding levels 
for those accounts. The FY 2008 request of $6.4 billion is $513 million 
(8.7 percent) greater than what is provided for FY 2007.
            Research and Related Activities (R&RA)
    The FY 2008 request provides scientific research programs and 
research facilities (which comprise the R&RA account) with a $367 
million (7.7 percent) increase from FY 2007. The increases for 
scientific research are spread fairly evenly among all fields NSF 
supports. The largest percentage increases are for the math and 
physical sciences, computer sciences, and engineering directorates. The 
(non-medical) biological sciences and the social, behavioral and 
economic sciences directorates receive smaller increases.
    NSF's contribution to the multi-agency National Nanotechnology 
Initiative increases by $17 million (4.5 percent), including $3 million 
more in support of research on the environmental, health and safety 
(EHS) aspects of nanotechnology. In particular, support is requested 
for a new, multi-disciplinary center to conduct EHS research and 
provide the science needed to inform the development of regulations.
            Major Research Equipment and Facilities Construction 
                    (MREFC)
    The MREFC activity funds the construction of large research 
facilities, such as telescopes and research ships. Funding for the 
operation and management of these major user facilities is included in 
the R&RA budget.
    The FY 2008 request provides an increase of $54 million (28.2 
percent) for MREFC, which will allow for continuation of support for 
six construction projects and one new start. The new project, which is 
funded at $33 million in the first year, will provide for an upgrade to 
increase the sensitivity of an Earth-based observatory for the study of 
gravitational waves.
    Three new projects proposed under last year's request are currently 
on hold due to funding uncertainties. Under the FY 2007 funding levels, 
NSF would be able to proceed on schedule with the two smaller projects 
(the National Ecological Observatory Network and Ocean Observatories 
Initiative), but would have only $6 million of the $56 million 
requested for the Alaska Region Research Vessel (ARRV).
            Education and Human Resources (EHR)
    EHR includes most of NSF's activities that support K-12 STEM 
education and the majority of activities that support undergraduate 
STEM education. EHR also includes most of NSF's graduate fellowship and 
traineeship programs.
    The FY 2008 EHR budget request is $751 million, a $34 million (4.8 
percent) increase from the FY 2007 request and a $53 million (7.5 
percent) increase from the FY 2007 level. Most of this proposed funding 
increase goes to increases in graduate research fellowships (+ $11.2 
million) and in activities to broaden participation in STEM fields (+ 
$28.6 million). NSF has also launched a concerted effort to evaluate 
program effectiveness across EHR, and in particular, for its STEM 
education programs and projects.
    Overall funding for K-12 programs in the FY 2008 request falls by 
$15 million (nine percent) from the FY 2007 level, and is flat compared 
to the President's FY 2007 request. In addition, after proposing no new 
Math and Science Partnership (MSP) grants in the past two budgets, the 
Administration would make $30 million available for new grants in FY 
2008. However, the FY 2008 budget request is $46 million--the same as 
the FY 2007 budget request and $17 million less than FY 2006 spending.
            Agency Operations and Award Management
    This NSF account, previously called Salaries and Expenses, funds 
the internal operations of NSF. The FY 2008 request provides an 
increase of $39 million (15.7 percent) above the FY 2007 level. NSF is 
facing the challenge of expanding its workforce to accommodate the 
demands created by the growing research budgets. H.J. Res. 20 would 
delay many planned new-hires in addition to planned upgrades of the 
electronic system used to receive and process grant applications. Most 
of the $39 million increase for agency operations and award management 
in the FY 2008 budget request are slated for these two needs.
Department of Homeland Security S&T Directorate
    The overall budget for the Department of Homeland Security's 
Science and Technology (S&T) Directorate is cut by $174 million or 17.9 
percent, and most research divisions would receive cuts in the FY 2008 
request. This is the second year in a row in which the Administration 
has proposed budget cuts for the S&T Directorate. The only significant 
budget increase is for the Office of the Director of Innovation, which 
oversees the Homeland Security Advanced Research Project Agency 
(HSARPA), the external research funding arm for DHS. HSARPA funds high 
risk research and rapid prototyping in the field of homeland security-
related technology development. This office increases by 58 percent to 
nearly $60 million.
    In 2006, Under Secretary for S&T Admiral Jay Cohen realigned the 
S&T Directorate. The FY 2008 budget reflects the new organization, and 
establishes new Offices for the Director of Transition and Director of 
Innovation. The research supported by the directorate is divided into 
three categories: basic research, innovative capabilities (applied), 
and product transition (development). The FY 2008 budget is strongly 
tilted towards biological and chemical countermeasures research, as in 
previous years, and this category represents 29 percent of the overall 
S&T Directorate budget. Whether this balance of priorities matches risk 
is unclear, and DHS is overdue to submit a report that will make 
certain that priorities are coordinated with a risk assessment. DHS 
currently expects to submit this report in February 2007.
    In addition, there remains an imbalance between long-term and 
short-term research, with the Department showing a strong focus on 
product development at the expense of longer-term basic research (which 
accounts for only 10 percent of the FY 2008 request). The proposal of 
the formation of the Office of the Director of Transition, which would 
be responsible for working with DHS components to speed technology 
transition, suggests that short-term development will become an even 
greater priority for the S&T Directorate. Additionally, the lack of 
stability in the reporting structure brought about by the formation of 
new offices could cause problems for coordinating research and aligning 
priorities within the Department and the broader federal R&D 
enterprise.
    In particular of note:

        <bullet>  The Chemical and Biological Division would be cut by 
        $84.6 million, which would be transferred to the Office of 
        Health Affairs for the BioWatch program, the Biological Warning 
        and Incident Characterization (BWIC) system, and the Rapidly 
        Deployable Chemical Detection System. A recent report by the 
        Department's Inspector General criticized the BioWatch program, 
        specifically for poor management and quality control. This new 
        office is likely a response to a call for stricter management 
        protocols, but it is unclear what real changes will be brought 
        about by its creation.

        <bullet>  Funding for the Explosives Division is reduced by 
        $41.5 million or 40 percent compared to FY 2007. This reduction 
        is partially a result of the completion of the Counter-MANPADS 
        program. If the Counter-MANPADS program is not considered in 
        the budget calculation, the total funding for explosives 
        countermeasures would decrease by $22.9 million or 26.4 
        percent.

        <bullet>  Funding for the Infrastructure and Geophysical 
        Division is reduced by $50.8 million or 68 percent. Funding 
        would be eliminated for two research institutes (including the 
        Southeast Regional Research Initiative at Oak Ridge National 
        Lab and Community Based Critical Infrastructure Protection 
        Institute) and significant cuts would be made to the Regional 
        Technology Integration Initiative.

        <bullet>  Funding for Laboratory Facilities would decrease by 
        $16.8 million or 16.0 percent from FY 2007. The reduction 
        includes a decrease for the Plum Island Animal Disease Center 
        (PIADC) and cuts in construction funding for the National Bio 
        and Agro-Defense Facility (NBAF). These cuts could curtail 
        efforts to prevent an outbreak of costly diseases in livestock, 
        such as Foot and Mouth disease.

        <bullet>  Funding for University Programs is reduced by $9.9 
        million (20 percent) compared to FY 2007. DHS plans to use the 
        proposed funding to establish four new University Centers of 
        Excellence in spite of the large reduction, thus cutting 
        funding for all current centers. Additional goals for the 
        program in FY 2008 include improving the capabilities of 
        Minority Serving Institutions--which are currently under-
        represented--to conduct research in homeland security related 
        areas and incorporating Minority Serving Institutions into the 
        University Centers program. Examples of affected university 
        programs include the National Center for Food Protection and 
        Defense, of which the University of Arkansas is a participant.

National Institute of Standards and Technology (NIST)
    The FY 2008 budget request for NIST is $25.2 million (or four 
percent) less than the FY 2007 level. As part of the American 
Competitiveness Initiative (ACI), the Administration proposes 
increasing the NIST labs account by $76.3 million (an 18 percent 
increase) and the construction account by $35.3 million (a 60 percent 
increase) However, these proposed increases are more than offset by the 
Administration's proposal to eliminate the Advanced Technology Program 
(ATP) and cutting the Manufacturing Extension Program (MEP) by $58.3 
million (a 56 percent cut). Therefore, despite proposed increased for 
physical sciences research at NIST, once again, no new funds are 
proposed for the agency.
    The FY 2007 House-passed CR would fully fund MEP and would provide 
$79 million for ATP. With carry-over funds from the prior year, the ATP 
will be able to make at least $40 million in new awards in FY 2007. 
However, the CR does not specifically state that ATP must make new 
awards, and in past years, the Administration has tried to block new 
awards even though the funds were appropriated.
            NIST Labs
    The NIST laboratories conduct research supporting U.S. technology 
infrastructure by developing tools to measure, evaluate and 
standardize, enabling U.S. companies to innovate and remain 
competitive. NIST helps U.S. companies, workers, and consumers by 
ensuring that standards are used to create a level playing field--not a 
barrier to trade--in the global marketplace. Under the FY 2008 budget 
request, funding for the NIST labs would increase by $75.7 million or 
18 percent, as part of the ACI.
            Advanced Technology Program (ATP)
    The ATP was created to foster economic growth through the 
development of innovative technologies. Through private/public 
partnerships, ATP's early stage investment is accelerating the 
development of high-risk, broadly enabling technologies and helping 
bridge the gap between the laboratory and the market place. Through May 
2004, ATP co-funded 736 projects with 1,468 participants. Sixty-six 
percent of ATP projects are led by small businesses, while more than 
160 colleges and universities have participated in ATP projects. 
Benefit-cost studies from approximately 40 projects indicate an eight 
to one return on investment.
    The FY 2008 budget proposes to eliminate ATP funding. The 
Administration justifies the termination of the ATP based on the growth 
of venture cap funds and other financial services for high-risk 
technologies, but has not provided documentation for these assertions.
            Manufacturing Extension Partnership (MEP)
    MEP is a proven public/private partnership in all 50 states and 
Puerto Rico with the mission of improving the competitiveness of small 
and medium-sized manufacturers. In FY 2005, MEP, a network of 59 
centers, assisted more than 16,000 small manufacturers, providing a ten 
to one return on federal investment. In a survey of approximately 25 
percent of MEP clients, they reported over $1.3 billion in cost savings 
directly attributed to the program's assistance as well as creating 
$6.3 billion in new or retained sales. The program also helped create/
retain more than 53,000 jobs and increased investment by $2.3 billion 
returned to the economy.
    In the FY 2008 budget, the Administration proposes cutting MEP 
funding by 56 percent to $46.3 million. The request includes $11.3 
million for overhead and oversight, leaving only $35 million for actual 
grants to MEP centers--less than half of what is required to maintain a 
fully operation national network of MEP centers. (In FY 2006, $92 
million in grants were made to MEP Centers.) The Administration 
justifies the MEP cut by claiming that the program has evolved to where 
less funding is required, and that MEP services also are provided by 
private entities. However, a report by the National Association of 
Public Administrators concluded that the small manufacturing community 
is under-served and that MEP does not displace the private sector.
National Oceanic and Atmospheric Administration (NOAA)
    The President's FY 2008 budget request for the National Oceanic and 
Atmospheric Administration (NOAA) is $3.96 billion, 2.7 percent below 
the FY 2006 appropriated funding (which is generally expected to 
continue with no increases in FY 2007).
    NOAA's mission includes weather forecasting and climate prediction, 
and management of fisheries, coastal and ocean resources. In addition, 
NOAA is responsible for mapping and charting coastal areas and 
providing other navigation support services through programs of the 
National Ocean Service. NOAA also conducts research in support of these 
missions including atmospheric sciences, coastal and oceanic science, 
climate and air quality research, ecosystem research, and fisheries and 
marine mammal research. Finally, NOAA also operates a constellation of 
satellites that monitor and transmit data for weather forecasting, 
climate prediction, space weather forecasting, and Earth and ocean 
science research.
            National Weather Service
    The National Weather Service (NWS) is the only office that receives 
a substantial increase in the President's FY 2008 request. The FY 2008 
request for NWS is 6.5 percent ($55.3 million) higher than the FY 2006 
enacted levels.
            National Environmental Satellite Data and Information 
                    Service (NESDIS)
    The President's FY 2008 budget request would increase the overall 
NESDIS budget by three percent ($26 million). The budget for NESDIS is 
dominated by the procurement, acquisitions and construction (PAC) 
accounts for the polar and geostationary satellite systems.
    The Operations, Research and Facilities (ORF) account for NESDIS 
contains the programmatic funding for management, processing, 
analyzing, and archiving the data received from all of NOAA's weather 
monitoring equipment--ground-based and space-based. This program 
provides funding for data processing and analyses at data centers 
located in Kentucky, North Carolina, Maryland, and West Virginia. This 
account also supports a number of regional climate centers. The FY 2008 
request for these accounts is $20 million below the FY 2006 enacted 
levels. The FY 2008 request also eliminates $4 million in funding for 
NOAA-NASA Partnerships to facilitate the transfer of research to 
operations. The Data Centers and Information Services accounts are 
reduced by $18 million from the FY 2006 enacted levels.
    NOAA operates two satellite systems that collect data for weather 
forecasting. The polar satellites (Polar-Orbiting Environmental 
Satellites--POES) orbit the Earth and provide information for medium to 
long-range weather forecasts. The geostationary satellites (GOES) 
gather data above a fixed position on the Earth's surface and provide 
information for short-range warnings and current weather conditions. 
Both of these systems are scheduled for replacement through the NPOESS 
and GOES-R programs, respectively. Because of the long time period 
required to design and develop new satellite series, the procurement of 
a new series begins years before the current series has completed its 
production cycle. Therefore, NOAA's procurement budget in this area 
includes both funds to complete and launch current weather satellites 
(POES and GOES) and funds to design and develop the next generation of 
weather satellites (NPOESS and GOES-R).
    The current series of Geostationary Operational Environmental 
Satellites (GOES-N, O and P) are nearing completion. GOES-N was 
launched last May. The FY 2008 request of $80.4 million will support 
the continued development, procurement and launch of the remaining GOES 
satellites scheduled for April 2007 and October 2008, respectively. The 
request for GOES-R, the new series of geostationary satellites ($279 
million) has been reduced from the original FY 2008 estimate ($532 
million) to reflect changes in the program's content (reducing the 
number of instruments and planned number of satellites) and to provide 
additional time to re-structure the program.
    The current series of Polar-Orbiting Environmental Satellites 
(POES) is nearing the end of its production cycle. The FY 2008 request 
to complete the current POES series is $115 million.
    The FY 2008 request for NPOESS, the new polar satellite series, is 
$331 million. This is $13 million less than planned for in last year's 
request. The funding will cover the continued development, production 
and risk reduction activities for the four key instruments to be 
included on the test satellite, the NPOESS Preparatory Project (NPP), 
scheduled for launch in 2010. The out-year funding profile for this 
program will be re-done and the prime contract for managing this 
program (with Northrup-Grumman) will be re-negotiated later this year.
            Oceanic and Atmospheric Research
    The office of Oceanic and Atmospheric Research contains over half 
of the research programs at NOAA. These programs are reduced by nearly 
$11 million below the FY 2006 enacted levels, approximately a three 
percent reduction. The budget increases funding for Climate Research by 
$23 million (13.5 percent). However, most of this increase is in the 
competitive research program and is accomplished by redirection of 
funds from Congressionally-mandated projects.
    The 2004 report by the U.S. Commission on Ocean Policy recommended 
that Congress double the federal ocean and coastal research budget over 
the next five years. No budget proposal since the report was issued has 
included substantial increases in ocean research funding at NOAA. The 
FY 2008 budget request is higher than the President's FY 2007 request. 
However, the Administration's budget once again cuts the Ocean, 
Coastal, and Great Lakes Research account below the FY 2006 
appropriation from $127 million to $105 million, a 17 percent decrease. 
Sea Grant receives a very small increase ($166,000), and the 
Administration requests an increase for Ocean Exploration of about $14 
million.
            National Ocean Service
    The President's FY 2008 request for the National Ocean Service 
(NOS) would reduce funding for NOS programs by over 20 percent. The 
largest reductions are in the Ocean Assessment program ($36 million) 
and in the Response and Restoration program ($13 million) of the Ocean 
Resources, Conservation, and Assessment accounts.
            Program Support
    The Program Support account includes the NOAA Education Program. 
Overall, the Program Support account is reduced by about 10 percent as 
compared to the FY 2006 enacted level. Most of this reduction is due to 
a reduction in the procurement accounts, but the proposed funding for 
NOAA education programs is also reduced significantly below the $38 
million enacted in FY 2006 to a proposed funding level of $19 million 
(an $18 million or 48 percent reduction).
    Chairman Gordon. Good morning. Welcome to this hearing on 
the Administration's Fiscal Year 2008 Research and Development 
budget.
    Mr. Sensenbrenner was giving me a lesson on Wisconsin 
driving, and unfortunately, we don't all have that, so I know 
there are going to be some delays. Mr. Hall is en route, but 
has given instructions for us to move forward, and that is what 
we are going to do. We have the responsibility to do an 
oversight plan, and we are going to wait until Mr. Hall gets 
here to go into that.
    So, we move forward, and thank you, Dr. Marburger. We know 
you came a long way this morning, and had a variety of 
barriers, and we thank you for getting those behind you and 
coming here with us.
    We are here today to discuss the Administration's proposal 
for research and development funding, which really means we are 
here to discuss our nation's future competitiveness. You have 
heard me say this before, but it continues to ring true. As a 
father of a five-year-old daughter, I am deeply concerned that 
our children will be the first generation of Americans not to 
inherit a standard of living higher than their parents.
    We need to get serious about ensuring that our country's 
economic strength continues to be the envy of the world. The 
fact of the matter is, the absolute dollars that we spend on 
research and development have been declining as a percent of 
our economy, and while our investments have been declining, 
other countries R&D investments have been increasing. A few 
years ago, South Korea overtook the U.S. in total R&D 
investment as a percentage of GDP; and China, which is raising 
its R&D by 10 percent a year, is on the path to closing that 
gap as well.
    And that is why I had hoped to see a budget from the 
President this year that recognized these realities and shored 
up our country's competitive position. But in 2008, under this 
budget, R&D as a share of GDP would decline again, to below one 
percent, and while the budget includes some important funding 
increases, it lacks the priorities and consistency to ensure 
our competitiveness now and in the long run.
    Proposed increases at some agencies are offset by decreases 
at other agencies. Physical science or sciences are boosted 
within the American Competitiveness Initiatives, but more than 
offset by decreases to NASA science programs, and by other 
cuts. And it is good to see the President's budget would 
increase overall funding for the National Science Foundation, 
but once again, funding for education programs at the NSF would 
decline.
    Over the last four years, NSF K-12 funding has dropped 
almost 50 percent, more than $130 million, and the 2008 budget 
request maintains these cuts. For more than 50 years, the 
National Science Foundation has been successfully implementing 
K-12 education programs. In fact, an Administration official at 
OMB recently agreed that NSF has ``a strong track record for 
vigorous evaluation that could be a model for other agencies 
trying to improve science and math instructions.'' And in 
testimony, other reports presented to this committee over the 
years, including the National Academies Gathering Storm report, 
the number one recommendation for improving math and science 
education has been improving teacher training.
    Still, the Administration continues to ignore these facts, 
and instead, has focused 70 percent of the education component 
of its Competitiveness Initiative on a very narrow area of K-8 
math curriculum at the Department of Education, an agency that 
already has been overburdened and underfunded. And I would like 
to make clear that the President's American Competitiveness 
agenda does not even include a specific science education 
component. This is a case of misplaced priorities, and I am 
hopeful that the Administration will reconsider scaling out the 
considerable experience and success of K-12 programs at NSF.
    In addition, while important physical science funding at 
NIST would increase, the President continues to refuse to see 
the value in two bipartisan supported programs that have proven 
track records in aiding small businesses and creating new jobs: 
the Manufacturing Extension Partnership, and the Advanced 
Technology Program. The President's budget would cut MEP 
funding by more than half, and let me tell you what that would 
mean in the real world. It means more than 8,000 small 
manufacturing businesses will lose over $650 million in cost 
savings and $3 billion in sales. It means we won't create 
25,000 jobs, and given MEP's ten to one return on investment, 
it means a loss of over $1 billion to the economy.
    And all of this after losing 100,000 manufacturing jobs 
last year alone, and 2.6 million since the President took 
office. The President also, once again, has proposed 
eliminating funding for the Advanced Technology Program, 66 
percent of which goes to small businesses, and which provides a 
return to the Federal Government of eight to one. This is 
hardly a way to maintain our economic competitiveness in the 
Twenty First Century.
    Finally, our country's continued economic growth will 
depend on having access to a clean, secure, reliable, 
affordable energy supply, and I am glad to see that the budget 
would continue to boost research funding for the Department of 
Energy's Office of Science even above the increases the Office 
received in 2007. Basic research can lay the foundation for 
reducing our country's energy dependence and addressing the 
impacts of global climate change, but today, too much energy 
R&D never gets beyond the lab.
    Unfortunately, in the Administration's budget, several 
energy programs to help develop and demonstrate new 
technologies are slated for elimination. Others with proven 
track records would face significant cuts. Let me give you an 
example. The Industrial Technologies Program at DOE sets up 
partnerships between the government and industry to share the 
cost in R&D and technological assistance. The program helps 
businesses reduce energy use and increase productivity. 
According to the Department of Energy's own analysis, this 
program has helped 170 new technologies enter the commercial 
marketplace, and saved $23 billion in energy costs. These 
results should not go unnoticed, but they have by this 
Administration, which has proposed cutting the Industrial 
Technologies Program by 20 percent.
    In short, we need to get our priorities in order. Ten years 
from now, I want to look at my daughter and know that I did my 
part to help find the solution to these issues.
    Dr. Marburger, I look forward to hearing your testimony, 
and discussing these issues further with you in my questions.
    [The prepared statement of Chairman Gordon follows:]

               Prepared Statement of Chairman Bart Gordon

    We are here today to discuss the Administration's proposals for 
research and development funding, which really means we are here to 
discuss our nation's future competitiveness.
    You have heard me say this before but it continues to ring true--As 
the father of a five-year-old daughter, I am deeply concerned that our 
children will be the first generation of Americans not to inherit a 
better quality of life than their parents. We need to get serious about 
ensuring that our country's economic strength continues to be the envy 
of the world.
    The fact of the matter is, the absolute dollars we spend on 
research and development have been declining as a percentage of our 
economy.
    And, while our investments have been declining, other countries' 
R&D investments have been increasing. A few years ago, overtook the in 
total R&D investment as a percentage of GDP. And--which is raising its 
R&D by 10 percent a year--is on the path to closing the gap as well.
    That's why I had hoped to see a budget from the President this year 
that recognized these realities and shored up our country's competitive 
position. But in 2008, under this budget, R&D as a share our GDP would 
decline again--to below one percent.
    While the budget includes some important funding increases, it 
lacks the priorities and consistency to ensure our competitiveness now 
and in the long run. Proposed increases at some agencies are offset by 
decreases at other agencies. Physical sciences are boosted within the 
American Competitiveness Initiative, but more than offset by decreases 
to NASA science programs, among other cuts.
    It's good to see that the President's budget would increase overall 
funding for the National Science Foundation.
    But once again, funding for education programs at NSF would 
decline. Over the last four years, NSF K-12 funding has dropped almost 
50 percent, more than $130 million. And the 2008 budget request 
maintains these cuts.
    For more than 50 years, the National Science Foundation has been 
successfully implementing K-12 education programs. In fact, an 
Administration official at OMB recently agreed that NSF has a--quote--
``strong track record for rigorous evaluation'' that could be a model 
for other agencies trying to improve science and math instruction.
    And, in testimony and other reports presented to this committee 
over the years--including the National Academies Gathering Storm 
report--the number one recommendation for improving math and science 
education has been improving teacher training.
    Still, the Administration continues to ignore these facts and 
instead has focused 70 percent of the education component of its 
competitiveness initiative on the very narrow area of K-8 math 
curriculum at the Department of Education--an agency that already has 
been overburdened and underfunded.
    I would like to make clear that the American Competitiveness 
Initiative does not even include a specific science education 
component.
    This is a case of misplaced priorities, and I am hopeful that the 
Administration will reconsider scaling out the considerable experience 
and success of K-12 programs at NSF.
    In addition, while important physical sciences funding at NIST 
would increase, the President continues to refuse to see the value in 
two programs that have a proven track record of aiding small businesses 
and creating new jobs--the Manufacturing Extension Partnership and 
Advanced Technology Program.
    The President's budget would cut M-E-P funding by more than half. 
Let me tell you what that means in the real world--
    It means more than 8,000 small manufacturing businesses will lose 
over $650 million in cost savings and $3 billion in sales.
    It means we won't create 25,000 jobs.
    And, given M-E-P's ten to one return on investment, it means a loss 
of over $1 billion to the economy.
    And all of this after losing 100,000 manufacturing jobs last year 
alone, and 2.6 million since the President took office.
    The President also once again has proposed eliminating funding for 
the Advanced Technology Program--66 percent of which goes to small 
businesses and which provides a return to the Federal Government of 
eight to one.
    This is hardly the way to maintain our economic competitiveness in 
the 21st Century.
    Finally, our country's continued economic growth will depend on 
having access to a clean, secure, reliable and affordable energy 
supply.
    I'm glad to see that the budget would continue to boost research 
funding for the Department of Energy Office of Science, even above the 
increases the office will receive in 2007.
    Basic research can lay the foundation for reducing our country's 
energy dependence and addressing the impacts of global climate change, 
but today too much energy R&D never gets beyond the lab.
    Unfortunately, in the Administration's budget, several energy 
programs that help develop and demonstrate new technologies are slated 
for elimination. Others with proven track records would face 
significant cuts.
    Let me give you an example--
    The Industrial Technologies program at DOE sets up partnerships 
between the government and industry to share the costs of R&D and 
technical assistance. The program helps businesses reduce energy use 
and increase productivity.
    According to the Department of Energy's own analysis, this program 
has helped 170 new technologies enter the commercial marketplace, and 
saved $23 billion in energy costs.
    These results should not go unnoticed--but they have by this 
Administration, which has proposed cutting the Industrial Technologies 
program by 20 percent.
    In short, we need to get our priorities in order.
    Ten years from now, I want to look at my daughter and know that I 
did my part to help find a solution to these issues. Dr. Marburger, I 
look forward to hearing your testimony, and discussing these issues 
further with you in my questions.

    Chairman Gordon. At this time, I will recognize our 
distinguished Ranking Member, Mr. Hall, for an opening 
statement.
    Mr. Hall. Mr. Chairman, thank you, and good morning, Dr. 
Marburger.
    I read this opening statement to you the first time I have 
read it to myself. Thank you for being here.
    I am sure that we are all in agreement that we are 
challenged with achieving a very delicate balance between 
adequately funding our nation's priorities, while at the same 
time exhibiting fiscal constraint and in an effort to reduce 
the deficit, and to bring our budget under control.
    Likewise, I know we are all in agreement that if we remain 
the world leader in competitiveness and innovation, we have to 
make the appropriate investments in research, development, 
technology, and math and science education.
    I am pleased to see that the fiscal year 2008 budget 
request continues to build upon many elements of the 
President's American Competitiveness Initiative, particularly 
with regard to substantially increasing the funding for 
physical sciences and engineering at the National Science 
Foundation, the National Institute of Science and Technology, 
and the Office of Science at the Department of Energy.
    The returns that we receive from our investments in these 
agencies far exceed the cost, whether it is fighting the war on 
terror abroad or at home, ending our dependence on foreign oil, 
or inspiring our children to enter high tech fields, so that 
the United States can continue to push the frontiers of 
innovation, these agencies have critical roles to play. I am 
especially pleased to see the Advanced Energy Initiative at the 
Department of Energy is funded at $2.7 billion in the fiscal 
year 2008 budget, a 26 percent increase over the fiscal year 
2007 request.
    As I have said on many occasions, America needs to be more 
energy independent, and federal programs such as these, 
combined with private sector initiatives, will help us achieve 
this goal. Whether we explore hydrogen fuel cells, cellulosic 
ethanol, clean coal technology, or advancements in oil and gas 
drilling, we are moving America away from a dependence on 
foreign oil and increasing our national competitiveness.
    I am also pleased to see an increase over the fiscal year 
2007 budget for the National Oceanic and Atmospheric 
Administration. NOAA provides valuable national services, 
including the weather forecasts and warnings that affect the 
daily lives of every citizen.
    As for NASA, a 3.1 percent increase is good, but it still 
may not be sufficient to ensure that we meet the 2014 goal to 
launch the new Crew Exploration Vehicle. Mike Griffin is doing 
a great job at NASA, but the Administration must acknowledge 
that the budgets being provided to him are fostering additional 
delays in fielding the new Exploration Vehicle. I hope you can 
address my concerns that further reductions in exploration 
systems funding will jeopardize the transition from the Shuttle 
to the CEV.
    I am hopeful our committee will continue to examine the 
effects of underfunding this very vital and important 
initiative, and I certainly look forward to your testimony, 
sir.
    [The prepared statement of Mr. Hall follows:]

           Prepared Statement of Representative Ralph M. Hall

    Thank you, Mr. Chairman. Good morning, Dr. Marburger. It's good to 
have you before us this morning.
    I am sure that we are all in agreement that we are challenged with 
achieving a delicate balance between adequately funding our nation's 
priorities while at the same time exhibiting fiscal constraint in an 
effort to reduce the deficit and bring our budget under control. 
Likewise, I know we also are all in agreement that if we are to remain 
the world leader in competitiveness and innovation, we must make the 
appropriate investments in research, development, technology, and math 
and science education.
    I am pleased to see that the FY 2008 Budget Request continues to 
build upon many elements of the President's American Competitiveness 
Initiative (ACI), particularly with regard to substantially increasing 
the funding for physical sciences and engineering at the National 
Science Foundation (NSF), the National Institute of Science and 
Technology (NIST), and the Office of Science at the Department of 
Energy (DOE). The returns that we receive from our investments in these 
agencies far exceed the costs. Whether it is fighting the war on terror 
abroad or at home, ending our dependence on foreign oil, or inspiring 
our children to enter high-tech fields so that the United States can 
continue to push the frontiers of innovation, these agencies have 
critical roles to play.
    I am especially pleased to see that the Advanced Energy Initiative 
at the Department of Energy is funded at $2.7 billion in the FY 2008 
budget--a 26 percent increase over the FY 2007 request. As I have said 
on many occasions, America needs to be more energy independent and 
federal programs such as these, combined with private sector 
initiatives, will help us achieve this vital goal. Whether we explore 
hydrogen fuel cells, cellulosic ethanol, clean coal technology, or 
advancements in oil and gas drilling, we are moving America away from a 
dependence on foreign oil and increasing our national competitiveness.
    I am also pleased to see an increase over the FY 2007 request for 
the National Oceanic and Atmospheric Administration. NOAA provides 
valuable national services, including weather forecasts and warnings 
that affect the daily lives of every citizen.
    As for NASA, a 3.1 percent increase is good, but it still may not 
be sufficient to ensure we meet the 2014 goal to launch the new crew 
Exploration Vehicle. Mike Griffin is doing a great job at NASA, but the 
Administration must acknowledge that the budgets being provided to him 
are fostering additional delays in fielding the new Exploration 
Vehicle. I hope that you can address my concerns that further 
reductions in exploration systems funding will jeopardize the 
transition from the Shuttle to the CEV. I am hopeful our committee will 
continue to examine the effects of underfunding this vital initiative.
    I look forward to your testimony.

    Chairman Gordon. Dr. Marburger, if you will give us just a 
moment. We have got to do some Committee business before we 
start the hearing.
    And pursuant to notice, the Committee will now consider for 
adoption the oversight plan for the 110th Congress. According 
to the Rules of the House, the Committee must adopt its 
oversight agenda in an open meeting of the Committee. You have 
before you the text of the oversight plan for the 110th. The 
text incorporates all suggestions, additions, and changes made 
at the request of the minority. I would also like to note that 
the adoption of this plan does not preclude oversight or 
investigation of additional matters as the need arises.
    I now recognize Mr. Hall for any comments he might like to 
make.
    Mr. Hall. Mr. Chairman, I will be brief. Thank you, and I 
appreciate the fact that you incorporated the suggested changes 
that we made, and appreciate your staff working with us the way 
they have, and I thank you for your help and accommodation on 
this issue.
    And we are prepared to adopt this oversight agenda this 
morning. I think there will be no opposition from this side.
    Chairman Gordon. Thank you, Mr. Hall. I hope this is an 
example of how we are going to work together in every way 
possible.
    I thank the distinguished gentleman for his comments. The 
Chair will order the previous question, on the adoption of the 
oversight plan.
    The question on adoption of the oversight plan for the 
110th Congress. All those in favor say aye. Aye. Those opposed, 
say nay. In the opinion of the Chair, the ayes have it.
    Okay. I ask unanimous consent that all additional opening 
statements submitted by the Committee Members be included in 
the record. Without objection, so ordered.
    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good morning. Mr. Chairman, thank you for calling this hearing to 
consider the President's fiscal year 2008 (FY08) budget proposal for 
federal research and development (R&D) programs.
    Energy security and investments in science, technology, and 
innovation are critical to our fight to stay competitive in the global 
marketplace and to develop clean energy technologies to meet our future 
energy needs. Adequate funding must be provided to meet these important 
goals, and I believe greater congressional oversight is needed to 
ensure government agencies are correctly implementing federal R&D 
programs.
    The President's budget proposes $143 billion in federal R&D funding 
which represents a slight increase over the anticipated FY07 level. 
First, the fossil energy R&D budget, which includes funding for coal 
programs, received $557 million in FY08, a two percent increase 
compared to FY07. While the coal budget appears robust, a good portion 
of the funding for FY 2008 is derived from previously appropriated 
clean coal funds, including funding for FutureGen. Therefore, only $15 
million can be considered ``new'' funding for clean coal programs. I am 
opposed to the rescission of these funds and I will work with my 
colleagues on both sides of the aisle to restore this funding. Coal is 
our most economical and abundant domestic resource, with a 250-year 
supply, and will be the mainstay for electricity generation into the 
foreseeable future. I believe Congress must continue to support a 
robust coal budget in order to improve coal use by supporting 
advancements in technology to reduce emissions of both criteria 
pollutants and carbon dioxide.
    Further, within the President's proposed DOE budget, a slight 
funding increase is provided for the Carbon Sequestration Program to 
develop a portfolio of technologies that hold great potential to reduce 
greenhouse gas emissions. The State of Illinois is one of seven 
regional carbon sequestration research partners funded by the 
Department of Energy. To date, research has shown that the geology in 
the Illinois Basin is favorable for geological sequestration and pilot 
tests are needed to demonstrate efficiency and carry out safety 
evaluations of burying carbon dioxide underground. I am concerned that 
the President's budget proposal significantly decreases the number of 
small scale demonstrations planned for Phase III of the regional carbon 
sequestration partnership. For Illinois, verifying the safety and 
capacity of geological sequestration through the Partnership research 
is key to revitalizing our coal industry, implementing the most 
advanced coal gasification technology, and making economic and 
meaningful carbon dioxide emissions reductions.
    Second, I am pleased the President's budget provides $9 billion in 
loan guarantees for clean energy and innovative technologies authorized 
in Title 17 of the Energy Policy Act of 2005 (EPACT). This is a step in 
the right direction, but a much bigger step is needed to make a real 
difference in the development of clean energy technologies. When 
Congress created this loan guarantee program in EPACT 2005, we 
envisioned a significantly more ambitious scope for the loan 
guarantees. This program provides incentives for clean energy projects 
that are critical in the fight against pollution or global emissions of 
greenhouse gases. Implementation of this program at the scale 
envisioned in EPACT 2005 could be a significant step toward addressing 
the challenge of global climate change, with little or no cost to the 
federal treasury.
    Third, the Bush administration's ``American Competitiveness 
Initiative'' as part of the Office of Science represents an increase of 
$602 million, or 15.9 percent over the FY07. To build on our successes 
and remain a leader in science and technology, our federal policies 
must elevate and promote new levels of educational achievement and 
focus on efforts to produce a skilled and knowledgeable workforce. With 
the right policies and adequate funding support, we will maintain 
America's competitive edge, we will create more jobs, and will improve 
the quality of life and standard of living for generations to come.
    Finally, I am concerned that the single best government program to 
provide immediate help to U.S. manufacturers, the Manufacturing 
Extension Program (MEP), is severely cut again this year. MEP is the 
only federal program with a proven track record in creating and 
retaining manufacturing jobs; yet, the Administration proposes to cut 
MEP by 56 percent. Annually, the Illinois Manufacturing Extension 
Center (IMEC) provides assistance to about 450 small and mid-sized 
manufacturers. These companies reported an average cost savings of 
$179,000 with IMEC's assistance. Year after year, MEP Centers struggle 
to survive rather than focus on what they do best: helping businesses 
increase efficiency and productivity in order to be competitive in the 
global marketplace.
    I welcome our witness and look forward to his testimony.

    [The prepared statement of Mr. Carnahan follows:]

           Prepared Statement of Representative Russ Carnahan

    Mr. Chairman, thank you for holding today's hearing on the 
President's proposed research and development budget.
    I share the Chairman's opinion that there are various positive 
increases in the R&D budget in the areas of competitiveness and 
innovation, specifically in basic research in the Department of Energy 
and the National Science Foundation. At the same time, other necessary 
programs have received decreased funding to account for these 
adjustments.
    I am particularly concerned about proposed cuts in some of the 
Nation's energy efficiency and renewable energy programs. We owe it to 
our children to invest in energy research now so that we can develop 
needed technologies to increase competitiveness and decrease the 
affects of pollution on global warming in the future.
    I am pleased that the Chairman has again put forward his innovation 
package and believe its consideration will allow this committee to more 
appropriately allocate funding to address concerns about U.S. 
competitiveness. The St. Louis community was delighted to host Mr. 
Gordon for a panel discussion on innovation last August. I look forward 
to participating actively in future debate.
    I look forward to hearing your testimony, Dr. Marburger. Thank you 
very much for being here today.

    [The prepared statement of Mr. Mitchell follows:]

         Prepared Statement of Representative Harry E. Mitchell

    Dr. Marburger, thank you for coming today. I look forward to your 
testimony.
    Unfortunately, America is struggling to keep pace with the 
international community in technological advances. To win this race and 
remain a technological leader, we must focus more attention on students 
and investment in research and development. If we don't invest now and 
invest well, we will fall even further behind.
    ASU has a large presence in my district and is a prominent leader 
in this fight to maintain global competitiveness. That is why I am 
pleased to see that the President's proposed budget includes an 
increase for NASA and the National Science Foundation (NSF) above the 
Fiscal Year 2007 levels. Both agencies fund the university through 
contracts and grants.
    While I am pleased with to see this funding increase, I am 
concerned about some of the President's funding priorities.
    Investing in short- and long-term research and development today is 
a dual benefit. For example, improving technologies for energy 
efficiency and vehicle emissions benefits both the environment and the 
economy.
    As such funding should be well-targeted to meet not only current 
needs but future research and development projects.
    The federal budget proposal which we are hearing about today 
highlights a lack of commitment by our government to dedicate itself to 
this goal.
    The future of American leadership in science and technology is 
heavily dependent on ensuring the competitiveness future generations. 
As a retired teacher with 28 years of experience, I understand the 
importance of education. For this reason, the FY 2008 budget's proposed 
overall cuts to K-12 education are particularly alarming.
    It seems like the Administration has saved us some money now, but 
cuts made to lower education programs are going to cost us in the 
global economy down the road.
    Therefore a focus on long term research and development must be a 
priority. If we don't step up our commitment, we will lose the 
opportunity to compete in critical technologies. To maintain America's 
competitiveness in science and technology, we must keep up investment 
and, more importantly, encourage future leaders in the field.
    I hope this committee. . .a distinguished committee. . .with a long 
tradition of fairness and bipartisanship. . .will address this at the 
appropriate time.

    [The prepared statement of Mr. Ehlers follows:]

         Prepared Statement of Representative Vernon J. Ehlers

    I am pleased that Dr. Marburger is with us today to share the 
Administration's request for research and development in the FY08 
budget. I know that there are many competing national priorities, 
including securing the homeland, providing for our aging population, 
and maintaining a vibrant national economy.
    For the past several years, research and development funding for 
defense, weapons development and national security has increased while 
other areas of federal research and development, especially basic 
research in the physical sciences, has remained flat or declined in 
real terms. Last year's FY 2007 request sought to reverse this trend, 
and House appropriators supported the increases requested by the 
Administration for three important agencies: the National Science 
Foundation, the Department of Energy's Office of Science, and the 
National Institute of Standards and Technology. I am thankful that the 
requests for the ``American Competitiveness Initiative'' are continued 
in FY08, and I look forward to working with my colleagues on the 
authorizing and appropriating committees to make the funding levels 
requested a reality.
    While I am heartened by the requested funds for NSF, I am concerned 
about the status of the Education and Human Resources (EHR) budget at 
the Foundation, including the Math and Science Partnership program. 
There is a continuing, but distressing, trend for NSF to move away from 
its K-12 educational mission and to focus solely on graduate education 
and activities to broaden participation in science, technology, 
engineering and math (STEM) fields. For the first time in years the 
Math and Science Partnership program will potentially be able to make 
some new grants this year instead of being eliminated as in recent 
budgets. With more than 50 years of experience, decreasing the role of 
NSF in education seems shortsighted when we are currently facing the 
challenge of adequately preparing our students to enter science and 
technology fields.

    [The prepared statement of Mr. Neugebauer follows:]

         Prepared Statement of Representative Randy Neugebauer

Mr. Chairman:

    Thank you for holding this hearing. I welcome the opportunity to 
take part in this important discussion and look forward to hearing from 
Dr. Marburger.
    President Bush's budget proposal represents a good starting point 
for Congress as we begin to set funding priorities for 2008. I think we 
all realize the value of scientific research and funding and how it 
directly impacts Americans. Continued scientific research and 
development gives our troops the tools to have the necessary technology 
to more safely fight the War on Terror, protects Americans' security 
here at home, provides the opportunity to help reduce our dependence on 
foreign sources of energy, and improves everyday conveniences such as 
reliable weather forecasting.
    Given this, we are also on target to balance the budget. It is 
imperative that we keep pursuing this goal by limiting unnecessary 
spending and continue to provide tax relief that has allowed our 
economy to thrive. We must be responsible stewards of the taxpayers' 
money and ensure that money is not spent in a wasteful manner. We in 
Congress have a responsibility to show spending restraint and make sure 
that federal money is used in a responsible and efficient manner.
    I welcome the opportunity to work with the Administration and my 
colleagues on the Science Committee to achieve our common goal of 
scientific advancement while also being fiscally responsible.

    Chairman Gordon. And now, Mr. Marburger, thank you. We are 
pleased that you have joined us as the Science Advisor to the 
President and Director of the Office of Science and Technology 
Policy. Before his appointment to the Executive Office of the 
President, Dr. Marburger served in a very distinguished way as 
the Director of the Brookhaven National Laboratory, and as 
President of the State University of New York at Stony Brook.
    Dr. Marburger, we greatly appreciate you adjusting your 
schedule in order to be with us today.

 STATEMENT OF DR. JOHN H. MARBURGER, III, DIRECTOR, OFFICE OF 
                 SCIENCE AND TECHNOLOGY POLICY

    Dr. Marburger. Thank you, sir, and it is a great pleasure 
for me to be here. Chairman Gordon and Ranking Republican 
Member Hall, and Members of the Committee, I am very pleased to 
appear today to present the President's Fiscal Year 2008 
Research Development Budget.
    This committee has been a strong and reliable supporter of 
the Nation's science mission, and on behalf of the 
Administration, I thank the Committee for the good working 
relationship it has established with the science agencies and 
with my office, and I look forward to working together in the 
future to advance American innovation and competitiveness. I 
very much appreciate the opportunity to make these points.
    I have submitted an extensive written testimony that I ask 
be included in the record, and I will briefly present some of 
the themes of that statement.
    President Bush's determination to balance the federal 
budget in five years requires setting priorities and allocating 
resources to achieve the greatest impact. Winning the war on 
terror, securing the homeland, and strengthening the economy 
remain the President's top priorities, and this year's budget 
once again emphasizes investments in America's future 
competitiveness through research and development.
    The President is proposing a record $142.7 billion R&D 
budget, which is an increase of $5.5 billion over the 2007 
budget. While the non-defense discretionary budget grows by 
less than a percent relative to the 2007 levels in the current 
continuing resolution, non-defense R&D is increased by 4.25 
percent, or nearly seven times faster. While significant 
increases have occurred for defense-related development, most 
of the D in R&D, I do want to emphasize that non-defense 
research spending has grown significantly during this 
Administration, as shown in the chart that I have placed--my 
able assistant has placed before you.
    With the 2008 budget, real growth (that is, not taking 
inflation into account) in outlays for the non-defense R&D 
budget is up 26.5 percent in seven years during this 
Administration. As you know, President Bush has advanced a 
strong agenda for science and technology in his recent State of 
the Union messages. Last year's American Competitiveness and 
Advanced Energy Initiatives, and this year's discussion of the 
importance of research and development to our future energy 
independence define priorities in research and development, 
science and math education, and other technology themes that 
are reflected in this year's R&D budget request.
    One of those themes is an emphasis on basic research, which 
receives almost $1 billion above the last appropriated level of 
2006. That is $28.4 billion compared with $27.5 billion. This 
favorable treatment of basic research is occurring in a year of 
belt-tightening for many other domestic programs, indicating 
the high priority this administration places on the importance 
of this activity.
    The broader category known as the federal science and 
technology budget, which goes beyond basic research to capture 
other activities relevant to competitiveness, advances by $1.3 
billion in 2008 relative to fiscal year 2006 levels. And when 
only civilian S&T agencies are considered, that represents a 4 
percent increase. If Congress funds the President's 2008 
request, and avoids earmarking this category, the FS&T funds, 
federal science and technology funds available for science 
agency programs, will increase by $1.5 billion from the 
President's own 2007 budget request.
    The American Competitiveness Initiative remains an 
important part of this year's R&D budget request. As you know, 
the ACI identifies three priority science agencies that have 
already been mentioned in opening statements, the National 
Science Foundation, the Department of Energy's Office of 
Science, and the laboratories of the National Institutes of 
Standards and Technologies. The 2008 budget calls for a 7.2 
percent increase on top of 2007's 9.3 percent requested 
increase. This additional $764 million brings the total two 
year ACI research incremental investment to $2.6 billion 
additional funding.
    Mr. Chairman, as I prepared this testimony, the then-
current draft of the Fiscal Year 2007 continuing budget 
resolution, the CR, provides only about half of the first year 
ACI budget, about $452 million short. I think the chart shows 
$454, but it is actually $452 million short of the President's 
request, and I know this committee is as disappointed as I am 
at this shortfall for science, and if not corrected before 
completion of the fiscal year '07 process, which I am afraid is 
nearing completion now, a year of enhanced and expanded high 
impact innovation research will be lost, and a $1.2 billion 
increase would be required in 2008 to catch up to the 
President's commitment. I think this would be a difficult 12 
percent increase in 2008.
    Well, in the past, the management of science programs has 
been made more difficult by the practice of earmarking. I know 
this committee already fully appreciates the earmarking problem 
and supports best practices in the allocation of research 
funding. As we discuss the importance of pursuing the best 
science to contribute to U.S. competitiveness, I hope the 
Congress will eliminate research earmarks in the fiscal year 
'08 appropriations process, as it is so commendably doing in a 
spirit of reform for the current fiscal year.
    Other important areas of research increased or sustained in 
this budget include climate-related science and technology, 
environmental systems, Earth observation systems, the Advanced 
Energy Initiative. I know my time is up, but I would direct 
your attention to my written testimony for detailed statements 
of these areas, and also, of the detailed agency budgets under 
the purview of this committee.
    Before I conclude this very brief and incomplete summary of 
the large and complex R&D budget, I do want to flag a concern 
regarding NASA and the budget danger that lies ahead for this 
agency, already flagged by Ranking Member Hall. The President's 
budget includes a 3.1 percent increase for NASA, on top of a 
3.4 percent requested increase for '07. However, the 2007 full 
year continuing resolution, as it stands now, cuts NASA by more 
than a half a billion dollars from the President's request, 
which leaves NASA at its '06 level, with no increase, and puts 
at risk the Vision for Space Exploration and priority Earth and 
space science missions.
    Mr. Chairman, America continues to lead the world in the 
quality and quantity of the science it produces. We lead not 
only in science, but also in translating science to 
economically significant products that enhance the quality of 
life for all people. This budget will sustain this leadership, 
and maintain science and technology capabilities that are the 
envy of the world, and I ask that Congress fully fund the 
initiatives advanced in the President's proposal.
    Thank you for permitting me to make these statements.
    [The prepared statement of Dr. Marburger follows:]

              Prepared Statement of John H. Marburger, III

    Chairman Gordon, Ranking Republican Member Hall, and Members of the 
Committee, I am pleased to appear before you today to present the 
President's Fiscal Year 2008 research and development (R&D) budget. 
Although this is my sixth year coming before the Committee to discuss 
the President's R&D program, it is my first under the new Congressional 
leadership. I am aware that this committee has expressed bipartisan 
support for science funding in the past, and values scientific research 
and its applications for the benefits it brings to every part of our 
society. On behalf of the Administration, I thank the Committee for the 
good working relationship it has established with the science agencies 
and with my office, and look forward to working together in the future 
to advance American innovation and competitiveness.
    This year, President Bush presents a Federal Budget that will 
balance in five years. The President proposes to do this by continuing 
strong pro-growth economic policies and by holding non-security 
discretionary spending below inflation. This strategy inevitably 
requires establishing priorities and allocating resources to achieve 
the greatest impact. Winning the war on terror, securing the homeland 
and strengthening the economy remain the President's top priorities, 
and this year's budget once again emphasizes investments in America's 
future competitiveness through research and development. The President 
is proposing a record $142.7 billion 2008 Federal R&D Budget, an 
increase of $5.5 billion over the 2007 Budget. And while the overall 
2008 non-defense discretionary budget grows by on 0.65 percent relative 
to the 2007 levels in the current continuing resolution, non-defense 
R&D is increased by 4.26 percent, or almost seven times faster. The 
President's commitment to the government's R&D enterprise is strong, 
and the advancement of science remains among his top budget priorities.
    While significant increases have occurred for defense-related 
development--most of the ``D'' in R&D--it is important to be aware of 
the very significant growth during this Administration in non-defense 
research spending, as shown in an accompanying chart. Non-defense R&D 
has continued on a significantly upward trajectory. In fact, with 
President Bush's 2008 Budget, real growth in outlays for the conduct of 
non-defense R&D--i.e., corrected for inflation--is up 26.5 percent in 
seven years during this Administration.
    With the launch of the American Competitiveness Initiative (ACI) 
last year and further discussion of the importance of research and 
development to our future energy independence this year, President 
Bush's recent State of the Union addresses advance a strong agenda for 
science and technology. This focus on research and development, science 
and math education, and other technology themes directly supports our 
national goals of securing the Nation, protecting the homeland, and 
making the economy strong.
    Before I get into the specifics of this year's research budget, I 
want to express my concern about the very serious deleterious impacts 
of earmarking on the science budget. I do this knowing that this 
committee already fully appreciates the problem and supports best 
practices in the allocation of research funding. As we discuss the 
importance of pursuing the best science to contribute to U.S. 
competitiveness, I hope the Congress will eliminate research earmarks 
in the FY 2008 appropriations process, as it is so commendably doing in 
a spirit of reform for the current fiscal year.
    The 2008 Budget raises funding for the category of Basic Research 
almost $1 billion above the last appropriated level of 2006: $28.4 
billion compared with $27.5 billion. Since the effect of last year's 
earmarks only enhance this difference and make the real programmatic 
increases even bigger, in my view this is a direct indication of the 
Administration's strong focus on fundamental research and the discovery 
of new knowledge as a leading mission of the Federal Government. It is 
notable that this favorable treatment of Basic Research is occurring in 
a year of belt-tightening for many other domestic programs, indicating 
the high priority this Administration places on the importance of this 
activity.
    Basic Research is not the complete measure of investment activities 
that drive future innovation. The accounting category known as the 
Federal Science and Technology Budget emphasizes both basic and applied 
science and engineering research short of development, and thus 
captures other important activities relevant to competitiveness This 
category advances $1.3 billion in 2008 relative to FY 2006 levels, and 
when only civilian S&T agencies are considered, that represents a four 
percent increase. If Congress funds the President's 2008 request and 
avoids earmarking, FS&T funds available for science agency programs 
will increase $1.5 billion from the President's own 2007 Budget.
    As the next now-familiar chart displays, the American 
Competitiveness Initiative identifies three priority science agencies: 
the National Science Foundation; DOE's Office of Science; and the 
laboratories of the National Institute of Standards and Technology. The 
2008 Budget calls for a 7.2 percent increase on top of 2007's 9.3 
percent requested increase. This additional $764 million brings the 
total two-year ACI Research incremental investment to $2.6 billion.
    As I prepared this testimony, the then-current draft of the FY 2007 
Continuing Budget Resolution (CR) provides only 50 percent of the 
first-year ACI budget. As you can see on this table, that is $452 
million short of the President's request. I know this committee is as 
disappointed as I am at this shortfall for science. The Statement of 
Administration Policy on the continuing resolution makes clear this is 
not sufficient to meet America's competitiveness challenge, and falls 
short of the doubling path that is an important component of the 
Initiative. If not corrected before completion of the FY 2007 process, 
a year of enhanced and expanded high-impact innovation research will be 
lost and a $1.2 billion increase would be required in 2008 to ``catch-
up'' to the President's commitment. This would require a difficult 12 
percent increase in 2008.
    While future competitiveness is the featured priority goal in this 
science budget, other science areas remain important to our nation's 
goals. Since 2002, the Administration has spent approximately $9 
billion on climate change science research through the multi-agency 
Climate Change Science Program, and the President's 2008 Budget 
sustains the level of effort. Further, between 2003 and 2006, the 
President has committed nearly $3 billion annually to the climate 
change technology research and deployment programs that constitute the 
multi-agency Climate Technology Program. The U.S. leads the world in 
advancing climate science and technology, with expenditures of nearly 
$29 billion in climate-related science, technology, international 
assistance, and incentive programs during this Administration.
    Undoubtedly previous investments in energy-related science and 
technology have put the U.S. well on track to meet the President's goal 
of reducing greenhouse gas intensity 18 percent by 2012. In other 
programs relevant to the environment, the 2008 Budget includes funding 
for a number of related Earth Observations programs including ocean 
observing systems, earthquake monitoring and prediction, tsunami 
warnings, Landsat, and the Global Precipitation Measurement mission. 
This year's budget also includes a new Ocean Initiative with over $80 
million in new 2008 funding for ocean science and research at the 
National Oceanic and Atmospheric Administration, NSF and the U.S. 
Geological Survey.
    Biomedical research is supported in the 2008 NIH Budget with an 
increase of $431 million over the 2007 request. This will allow NIH to 
award over 10,000 new and competing research grants, an increase of 
more than 900, and will double the New Investigators program. The NIH 
Director's Roadmap Initiative is increased 10 percent in 2008 to 
enhance this interdisciplinary incubator for new ideas that will 
accelerate the pace of discovery across the NIH's 27 Institutes and 
Centers.
    The Advanced Energy Initiative (AEI) at DOE is funded at $2.7 
billion in the 2008 Budget, which is a 26 percent increase over the 
President's 2007 request and almost $1 billion more than 2006. The AEI 
will contribute to the President's goal of cutting gasoline use by 20 
percent in 10 years by accelerating the technical and cost viability of 
plug-in hybrids, hydrogen-powered fuel cells, and ``cellulosic'' 
ethanol derived from biomass. AEI will also accelerate clean 
electricity generation technologies such as solar, wind, nuclear, and 
clean coal. Perhaps most critically, the 2008 AEI includes over $700 
million in basic research at DOE's Office of Science, a 32 percent 
increase, to overcome major technical barriers to the use of solar, 
biomass, hydrogen and fusion. With the 2008 Budget, the Presidential 
commitment to invest $2 billion on clean coal research is fulfilled, as 
is President Bush's commitment to propose a five-year, $1.2 billion 
Hydrogen Fuel Initiative.
    This Administration's National Nanotechnology Initiative also 
strongly continues with $1.45 billion in 2008 for this multi-agency, 
well-coordinated investment in fundamental research, multi-disciplinary 
centers of excellence, and development of focused cutting-edge research 
and education infrastructure. With the 2008 request, over $8 billion 
will have been spent on nanoscale R&D in seven years. The NNI also 
supports activities addressing the societal implications of 
nanotechnology, including those related to human and environmental 
health and methods for managing potential risks.
    Finally, let me finish by expressing a concern regarding NASA and 
the budget danger that lies ahead for this agency. The President's FY 
2008 Budget includes a 3.1 percent increase for NASA in 2008 on top of 
the President's 3.4 percent requested increase for 2007. However, the 
2007 full-year CR as it stands now cuts NASA $545 million from the 
President's request. That leaves NASA at its 2006 level with no 
increase and puts at risk the Vision for Space Exploration and priority 
Earth and space science missions. Certainly at risk is the timely 
development of a new, much more capable U.S. human spacecraft to follow 
the Shuttle which will be retired in 2010.

AGENCY BUDGET HIGHLIGHTS

National Science Foundation (NSF):
    Funds are requested to increase the budget for NSF to $6.43 billion 
in FY 2008, 45 percent above 2001's $4.43 billion level. Similar 
investments in the past have yielded important scientific discoveries, 
which boost economic growth and enhance Americans' quality of life.
    The centerpiece of the American Competitiveness Initiative is 
President Bush's plan to double investment over a 10-year period in key 
federal agencies that support basic research programs emphasizing the 
physical sciences and engineering. NSF is one of the three key 
agencies, as it is the primary source of support for university and 
academic research in the physical sciences, funding potentially 
transformative basic research in areas such as nanotechnology, advanced 
networking and information technology, physics, chemistry, material 
sciences, mathematics and engineering.
    NSF has central roles in two previously mentioned Administration 
priority research areas that promise to strengthen the Nation's 
economy: the National Nanotechnology Initiative (NNI) and the 
Networking and Information Technology R&D program (NITRD). NSF-funded 
nanotechnology research, proposed at $390 million in FY 2008, a five 
percent increase over the 2007 request and 160 percent since 2001, has 
advanced our understanding of materials at the molecular level and has 
provided insights into how innovative mechanisms and tools can be built 
atom by atom. This emerging field holds promise for a broad range of 
developing technologies, including higher-performance materials, more 
efficient manufacturing processes, higher-capacity computer storage, 
and microscopic biomedical instruments and mechanisms. NSF's 
investments in NITRD, funded at $994 million in 2008, up $90 million 
over 2007 and 56 percent since 2001, support all major areas of basic 
information technology (IT) research. NSF also incorporates IT advances 
into its scientific and engineering applications, supports using 
computing and networking infrastructure for research, and contributes 
to IT-related education for scientists, engineers, and the IT 
workforce.
    The 2008 NSF Education and Human Resources (EHR) budget will 
continue efforts to prepare U.S. students for the science and 
engineering workforce with a 7.5 percent increase (+$53 million) over 
the level in the House-passed 2007 full-year CR, adjusted for the 
movement of EPSCoR to the Research and Related Activities account. To 
further strengthen NSF's emphasis on increasing the quality and 
quantity of the science and engineering workforce and ensuring that 
undergraduate students are well prepared for an increasingly 
technological global society, EHR will increase funding for its 
undergraduate education portfolio by $13.4 million. This total includes 
$3.5 million for the Course, Curriculum, and Laboratory Improvement 
program and $5.1 million for the Advanced Technological Education 
program to improve technician training at community colleges. The FY 
2008 EHR budget also provides an increase of $8.9 million for the 
Graduate Research Fellowship program, an amount that will support an 
additional 200 graduate students, and $4.53 million for the Centers of 
Research Excellence in Science and Technology, a program designed to 
broaden participation in the science and engineering workforce. NSF's 
K-12 education programs remain strong with $30 million made available 
in FY 2008 for new awards under the Math and Science Partnerships 
program.
Department of Energy (DOE):
    DOE implements the President's Advanced Energy Initiative (AEI), 
highlighted above. The 2008 AEI Budget proposes:

        <bullet>  $217 million for the solar R&D to accelerate 
        development of cost-effective photovoltaic materials;

        <bullet>  $292 million for the biomass R&D, including $179 
        million for the Biofuels Initiative and an additional $113 
        million in supporting basic research, to help enable cellulosic 
        ethanol to become practical and competitive;

        <bullet>  $42 million for development of high-energy, high-
        power batteries for hybrid-electric and ``plug-in'' hybrid 
        vehicles;

        <bullet>  $309 million for the Hydrogen Fuel Initiative to 
        accelerate development of hydrogen production, storage, and 
        infrastructure technologies that can help make possible the use 
        of hydrogen-powered fuel cell vehicles and infrastructure to 
        support them;

        <bullet>  $40 million for wind energy research to help improve 
        the efficiency and lower the costs of wind technologies for use 
        in low-speed wind environments, and to help overcome technical 
        and regulatory barriers to more wide-scale deployment of wind 
        technologies; and

        <bullet>  $108 million for the FutureGen Initiative to develop 
        technologies for a coal gasification plant with near-zero 
        atmospheric emissions.

    The 2008 AEI budget also proposes $395 million for the Global 
Nuclear Energy Partnership in Nuclear Energy with the goals to 
demonstrate advanced fuel cycle technologies, to expand the domestic 
use of nuclear power, and to provide for safe, environmentally 
responsible global nuclear energy systems that support non-
proliferation objectives. Full funding of $160 million for the U.S. 
contribution to the ITER international fusion energy project is 
included as well.
    The Office of Science in DOE (DOE-SC) is one of the three priority 
research agencies in the President's American Competitiveness 
Initiative, supporting scientific studies and infrastructure for a wide 
range of basic research related to potentially significant innovations. 
The 2008 Budget provides $4.4 billion for DOE-SC, an increase of 16 
percent over the level in the 2007 House-passed full-year continuing 
resolution (CR), which is $306 million below the President's 2007 ACI 
request. The Budget includes funding for priorities such as 
nanotechnology ($286 million), materials science research facilities 
($699 million), basic research in support of the hydrogen fuel 
initiative ($60 million), the advanced energy initiative ($713 
million), and high-end computing facilities and research ($340 
million). The Budget also completes funding ($45 million) for project 
and engineering design of the National Synchrotron Light Source II, a 
new x-ray light source that will enable the study of materials 
properties and functions at a level of detail and precision (nanoscale) 
never before possible. It continues support for construction of the 
Linac Coherent Light Source--a materials research facility that will 
provide laser-like x-rays allowing an unprecedented real-time glimpse 
of chemical and biological processes, fully funds operations for the 
five nanoscale science research centers, and provides funding for the 
project and engineering design for the upgrade of the Continuous 
Electron Beam Accelerator Facility.
National Institute of Standards and Technology (NIST):
    The Department of Commerce's NIST ``core'' research and facilities 
receive $594 million in 2008, an increase of 21 percent from the level 
in the 2007 House-passed full-year CR, which is $44 million below the 
President's 2007 ACI request. In 2008, the American Competitiveness 
Initiative proposes NIST funding increases of $69 million for new 
initiatives in research and measurements in high-leverage areas such as 
the Disaster-Resilient Structures and Communities Program, the 
interagency Climate Change Science Program, and the interagency 
National Earthquake Hazards Reduction Program. Support continues for 
high-leverage, broad impact research in quantum information processing, 
nanotechnology, and new and expanded capabilities at the NIST Center 
for Neutron Research and at its Boulder, Colorado, high-performance 
labs.
National Aeronautics and Space Administration (NASA):
    The President's 2008 Budget for NASA is $17.3 billion, a 3.1 
percent increase over the President's 2007 request, reflecting a strong 
commitment by the Administration to the continued pursuit of the Vision 
for Space Exploration. The 2007 House-passed full-year CR, however, 
reduces the 2007 Budget by $545 million to $16.2 billion. If NASA is 
not provided its 2007 request level of $16.8 billion, the agency needs 
flexibility within its appropriation accounts to reduce the adverse 
consequences of a top-line reduction.
    In 2008, NASA requests $3.92 billion for exploration systems 
including the Orion Crew Exploration Vehicle (CEV) and the Ares I 
launch vehicle that will carry astronauts to the Moon. Having already 
initiated the acquisition process for certain elements of this 
architecture during 2006, NASA anticipates that all Orion CEV and Ares 
I elements will be under contract by the end of 2007, with the first 
crewed-flight planned to occur no later than 2014.
    The 2008 Budget requests $5.52 billion, almost a third of NASA's 
total budget, to continue operating the 59 spacecraft of NASA's Science 
Mission Directorate and to support investments in future Earth and 
space science missions, vital technologies, and frontier research. NASA 
will develop seven new Earth-observing space missions, including the 
Landsat Data Continuity Mission and the Global Precipitation 
Measurement mission, which will launch no later than 2013. NASA will 
continue its roles in the interagency Climate Change Science Program 
and the international initiative on the Global Earth Observing System 
of Systems. NASA will also support studies of the Earth-Sun system 
using data from the STEREO mission and the upcoming Solar Dynamics 
Observatory. A new Lunar Science Research program will leverage robotic 
investigations of the lunar surface in support of the Vision for Space 
Exploration. Following up its missions to Mars and Saturn, NASA is 
sending ever-more capable spacecraft to Mars, Mercury, the asteroids, 
and Pluto. NASA also will continue its vibrant astronomy program 
through its Great Observatories, and will upgrade Hubble in 2008 to 
provide five more years of productive on-orbit life, while planning new 
spacecraft, such as Webb and Kepler, that will search for planets 
around other stars and peer deep into the universe. Funding for the 
Beyond Einstein program is increased in FY 2008 to act on the 
forthcoming recommendation from the National Research Council regarding 
a strategy to unlock the secrets of the fundamental physics of the 
universe.
    In December 2006, the President approved the Nation's first 
National Aeronautics R&D Policy. Consistent with this Policy, the 2008 
NASA aeronautics budget prioritizes fundamental aeronautics research, 
the improvement of aviation safety, and research that will help support 
the development of the Next Generation Air Transportation System. In 
addition, NASA will address infrastructure upgrades and maintenance 
requirements for aeronautical test facilities across NASA centers that 
are of vital importance to the Nation. The 2008 Budget requests $554 
million for NASA aeronautics, an almost five percent increase over the 
2007 request after adjusting for NASA's implementation of simplified 
full-cost accounting.
National Oceanic and Atmospheric Administration (NOAA):
    For NOAA in the Department of Commerce, the FY 2008 Budget provides 
$358 million for Oceanic and Atmospheric Research (OAR), a $20 million 
increase over the 2007 Budget. OAR provides for ongoing research on 
climate, weather, air quality, and ocean processes.
    The 2008 NOAA budget supports a new interagency oceans initiative 
to implement the President's U.S. Ocean Action Plan including $60 
million in new funding over the 2007 Budget to advance oceans science 
and research (of which $13 million is in OAR). $20 million will address 
four near-term ocean research priorities established by the Ocean 
Research Priorities Plan and Implementation Strategy (ORPPIS), 
published in January (with another $20 million from NSF and USGS). The 
NOAA Budget also proposes $8 million to develop an operational ocean 
monitoring network, for technology and other infrastructure to support 
ocean science, for International Polar Year activities, and for 
research on protected species and commercial fisheries.
United States Geological Survey (USGS):
    The President has proposed a budget of $975.0 million for USGS in 
the Department of the Interior in Fiscal Year 2008. The proposed budget 
includes an increase of $3 million for the new oceans initiative 
activities, including $1.5 million in the Coastal and Marine Geology 
program to begin implementation of the Oceans Research Priorities Plan 
and Implementation Strategy. This involves conducting observations, 
research, and sea-floor mapping and developing forecast models. The 
budget also includes $1.5 million in the Hydrologic Networks and 
Analysis program to begin implementation of an interagency National 
Water Quality Monitoring Network that will integrate watershed, coastal 
waters, and ocean monitoring based on common criteria.
    The FY 2008 USGS budget continues funding for operations and 
maintenance of Landsats 5 and 7. The Budget also funds efforts with 
NASA and the Landsat Science Team to continue development of the 
Landsat Data Continuity Mission. The FY 2008 budget includes $24 
million for Landsat 8.
Environmental Protection Agency (EPA):
    The FY 2008 Budget for science and technology funding at EPA is 
$755 million. Research priorities include supporting the agency's risk 
assessment programs including Air Quality Science Assessments (formerly 
called the Air Quality Criteria Documents) and the Integrated Risk 
Information System (IRIS), and the Science to Achieve Results (STAR) 
program of extramural research and graduate fellowships in areas of 
environmental science and engineering. $69 million is requested to fund 
new and ongoing research in water security, including monitoring and 
surveillance of terrorist threat agents, and post-incident 
decontamination.
Department of Transportation (DOT):
    The FY 2008 Budget request for highway-related research is $430 
million, consistent with the level in the multi-year surface 
transportation research authorization. Highway research includes the 
Federal Highway Administration's transportation research and technology 
contract programs. These research programs include the investigation of 
ways to improve safety, reduce congestion, improve mobility, reduce 
life cycle construction and maintenance costs, improve the durability 
and longevity of highway pavements and structures, enhance the cost-
effectiveness of highway infrastructure investments, and minimize 
negative impacts on the natural and human environment.
    The 2008 Budget request for Federal Aviation Administration (FAA) 
Research, Engineering, and Development is $140 million, including $63 
million focused on the advancement of the Next Generation Air 
Transportation System led by its Joint Planning and Development Office.
    In addition, the 2008 Budget requests $12 million for the Research 
and Innovative Technology Administration to coordinate and advance the 
pursuit of transportation research that cuts across all modes of 
transportation, such as hydrogen fuels, global positioning and remote 
sensing. DOT research programs also support the National Nanotechnology 
Initiative, the U.S. Climate Change Technology Program, and the 
President's Hydrogen Fuel Initiative.
Department of Defense (DOD):
    DOD's FY 2008 R&D budget is almost $79 billion. This level of 
funding will support the Department's commitment to transform its 
capabilities and forces for greater agility, while enabling effective 
responses to asymmetric and uncertain challenges of future conflicts.
    These funds will also help address emergent threats through 
countermeasures to biological agents and will advance novel 
technologies to detect and neutralize improvised explosive devices, 
mines, rockets and mortars. DOD provides the largest share of NITRD 
program funding, over $1 billion, to address IT needs for the Nation's 
defense. Likewise, DOD invests $375 million under the National 
Nanotechnology Initiative, emphasizing development of materials, 
devices and systems that address the national security mission.
    The Science and Technology (S&T) component of the overall DOD R&D 
budget includes basic research (6.1), applied research (6.2), and 
advanced technology development (6.3). At $10.8 billion in the FY 2008 
Budget, DOD S&T exceeds the 2001 enacted level by 21 percent, or $1.8 
billion. From 2000 to 2007, Congressional adds to DOD S&T quadrupled. 
For 2007, there were over 1200 of these adds (totaling $2.8 billion), 
most of which must be identified and tracked down, advertised in a way 
specific to the Congressional mark, evaluated, negotiated and awarded, 
in some way separate from other potential awards. This means that those 
awards consume several times the staff and management resources of the 
average research award, and may not even target a military-specific 
research need. The large number of such additions creates impediments 
to the creation of effective research programs throughout the 
Department, and should be cause for concern to Congress as well as to 
the Administration.
    A total of $1.43 billion is provided for DOD 6.1 basic research in 
2008. This is a nominal increase over the 2007 Budget and represents 
13.3 percent of the DOD S&T Budget, more than last year's 12.8 percent 
share.
Department of Homeland Security (DHS):
    The President's FY 2008 request includes $799 million for the DHS 
Directorate of Science and Technology and $562 million for the Domestic 
Nuclear Detection Office. R&D continues to play a key role in securing 
the Nation against the terrorist threat. The President's 2008 Budget 
maintains an aggressive investment in scientific research, technology 
development, and research infrastructure aimed at continuing to enhance 
our nation's security. Priority research areas include: $100 million in 
transformational R&D aimed at enhancing our ability to detect, 
identify, and attribute nuclear and radiological materials; $68 million 
for explosives countermeasures research; and $15 million to fund cyber 
security and information assurance R&D.

CONCLUSION

    Making choices is difficult even when budgets are generous, but 
tight budgets require priorities to be focused, and program management 
to be strengthened. This year's R&D budget proposal provides robust 
levels of investment that allow America to maintain its leadership 
position in science and move ahead in selected priority areas. The 
American Competitiveness Initiative and Advanced Energy Initiative 
properly focus R&D investments in areas that will increase our economic 
competitiveness, decrease our dependence on foreign oil, and accelerate 
development of clean energy technologies.
    America currently spends one and a half times as much on federally-
funded research and development as Europe, and three times as much as 
Japan, the next largest investor. Our scientists collectively have the 
best laboratories in the world, the most extensive infrastructure 
supporting research, the greatest opportunities to pursue novel lines 
of investigation, and the most freedom to turn their discoveries into 
profitable ventures if they are inclined to do so.
    We lead not only in science, but also in translating science to 
economically significant products that enhance the quality of life for 
all people.
    This budget will sustain this leadership and maintain science and 
technology capabilities that are the envy of the world. I ask that 
Congress fully fund the initiatives advanced in the President's 
proposal. I would be pleased to respond to questions.

                  Biography for John H. Marburger, III

    John H. Marburger, III, Science Adviser to the President and 
Director of the Office of Science and Technology Policy, was born on 
Staten Island, N.Y., grew up in Maryland near Washington D.C. and 
attended Princeton University (B.A., Physics 1962) and Stanford 
University (Ph.D. Applied Physics 1967). Before his appointment in the 
Executive Office of the President, he served as Director of Brookhaven 
National Laboratory from 1998, and as the third President of the State 
University of New York at Stony Brook (1980-1994). He came to Long 
Island in 1980 from the University of Southern California where he had 
been a Professor of Physics and Electrical Engineering, serving as 
Physics Department Chairman and Dean of the College of Letters, Ants 
and Sciences in the 1970's. In the fall of 1994 he returned to the 
faculty, at Stony Brook, teaching and doing research in optical science 
as a University Professor. Three years later he became President of 
Brookhaven Science Associates, a partnership between the university and 
Battelle Memorial Institute that competed for and won the contract to 
operate Brookhaven National Laboratory.
    While at the University of Southern California, Marburger 
contributed to the rapidly growing field of nonlinear optics, a subject 
created by the invention of the laser in 1960. He developed theory for 
various laser phenomena and was a co-founder of the University of 
Southern California's Center for Laser Studies. His teaching activities 
included ``Frontiers of Electronics,'' a series of educational programs 
on CBS television.
    Marburger's presidency at Stony Brook coincided with the opening 
and growth of University Hospital and the development of the biological 
sciences as a major strength of the university. During the 1980's 
federally sponsored scientific research at Stony Brook grew to exceed 
that of any other public university in the northeastern United States.
    During his presidency, Marburger served on numerous boards and 
committees, including chairmanship of the governor's commission on the 
Shoreham Nuclear Power facility, and chairmanship of the 80 campus 
``Universities Research Association'' which operates Fermi National 
Accelerator Laboratory near Chicago. He served as a trustee of 
Princeton University and many other organizations. He also chaired the 
highly successful 1991/92 Long Island United Way campaign.
    As a public spirited scientist-administrator, Marburger has served 
local, State and Federal governments in a variety of capacities. He is 
credited with bringing an open, reasoned approach to contentious issues 
where science intersects with the needs and concerns of society. His 
strong leadership of Brookhaven National Laboratory following a series 
of environmental and management crises is widely acknowledged to have 
won back the confidence and support of the community while preserving 
the Laboratory's record of outstanding science.

                               Discussion

    Chairman Gordon. Thank you, Mr. Marburger.
    I hope you don't think that I am a one trick pony, because 
I think every time we have talked in the last year or probably 
year and a half, I have gone back to the competitiveness, and 
the Rising Above the Gathering Storm report, which Norm 
Augustine will present to us again next month.
    And as you know, the number one recommendation of that 
report for improving K-12 science and math education was to 
improve the teacher training, and that report follows 20 years 
of agreement by education experts on the issue, and I think 
every expert that has come before this committee has said it is 
teacher training, and not only does the President's American 
Competitiveness Initiative not focus on teacher training, it 
does not even include a specific science education component.
    As I have mentioned earlier, approximately 70 percent of 
the education component of the President's Competitiveness 
Initiative focuses on K-8 math curriculum, math curriculum at 
the Department of Education. How does the Administration 
justify such a different focus, and on what expert advice was 
this decision made?
    Dr. Marburger. Mr. Chairman, the education really rests on 
three important pillars. It rests on curriculum, on pedagogy, 
the art of teaching, and on evaluation, and all of those have 
to be advanced in a balanced way in order to ensure 
effectiveness in education.
    At the beginning of his Administration, President Bush 
launched the initiative that we all know as No Child Left 
Behind, that included very important components of literacy, 
science, and math education. And when the American 
Competitiveness Initiative emerged, and the Gathering Storm 
report that preceded it, this Administration had already 
embarked on major reforms in areas at all levels of education 
that feed into the quality of science instruction and eventual 
competitiveness of our nation.
    It was necessary to craft the American Competitiveness 
Initiative to fit into the already substantial investments and 
plans that were laid under the No Child Left Behind initiative, 
and I believe that the framework of the ACI in its education 
initiatives does reflect a considered approach to the entire 
spectrum of needs of the education. You will note that in 
current budget requests that we are discussing in this hearing 
today, the President has asked for additional funding for the 
education and human resources component of the National Science 
Foundation, it is actually a very healthy increase, and 
maintains funding in the Math and Science Partnership, which 
most people agree is an important component of enriching math 
and science education at the lower grade levels that you are 
referring to.
    So, by no means has this component been ignored by this 
Administration in laying the plans for future economic 
competitiveness. We are proud of the investments that we are 
making. We agree with Gathering Storm that there is a need 
here, and we feel that this budget addresses that need.
    Chairman Gordon. Dr. Marburger, I see that you have 
attended the school of rope-a-dope in trying to move through 
your five minutes. You did a good job there, but it is 
interesting to me how you can say ``a balanced approach,'' when 
70 percent of the funds go to K-8 curriculum. This is really 
just a backdoor way to try to fund No Child Left Behind, which 
is fine. I think we need to fund No Child Left Behind, but that 
is different than the competitiveness issue.
    You mentioned nothing about teacher training. Over 50 
percent of the teachers in this country that teach math have 
neither a certificate or a major in that degree; 92 percent of 
the physical science teachers have neither a certificate or a 
major in that area. You know, all the experts tell us we have 
got to help these teachers better understand their topics.
    You know, clearly this does not address that, and it is 
disappointing. And I guess it is really sort of rubbing our 
nose in it to talk about the National Science Foundation, when 
you have cut by over 50 percent their education component, one 
that has been working for 50 years. So, that is a concern.
    Now, let us move to NASA. There is a lot to talk about in 
NASA, but I will try to be very succinct here. I would like to 
ask you why NASA has not been included in the American 
Competitiveness Initiative. NASA's basic research and 
technology activities meet all of the metrics you established 
in the ACI for inclusion in the National Science Foundation, 
DOE Science Program, and in this program. Can you explain the 
inconsistency in your treatment of NASA's research programs?
    Dr. Marburger. Yes, sir. Be glad to do that.
    NASA focuses on discovering new phenomena and understanding 
the phenomena in outer space. It does this through various 
observational platforms, and we believe that NASA is funded 
more commensurately with the challenges in that particular area 
of science than the other agencies that were identified for ACI 
priorities.
    Chairman Gordon. So, you don't think that research in 
aeronautics and the other scientific research of NASA is world 
class, and isn't also part of their charge?
    Dr. Marburger. No, absolutely. It is part of their charge, 
and they do a good job at it. But frankly, it is funded better 
than the physical science in these other agencies that has been 
underfunded for a long time, and we need to catch up.
    Chairman Gordon. Well, it took a $300 million cut, another 
cut in aeronautics research. How are we going to get this done? 
How are we going to be competitive with the Europeans, when the 
Europeans say that our planes can't land if they are not 
quieter, or if they are not more fuel efficient, or if they are 
not less polluting, how are we going to meet that challenge?
    Dr. Marburger. I think it is important to conduct research 
in civil aeronautics, and I believe that NASA is attempting to 
address the effectiveness of the research in that area with 
management actions that improve the performance of civil 
aeronautics research.
    Chairman Gordon. Well, let me ask you just one last 
question, Dr. Marburger, and we need to get on.
    We had a very interesting hearing from the National 
Academies on the Decadal Survey. Have you had a chance to 
review that?
    Dr. Marburger. Yes, sir. We commissioned that survey. We 
require NASA and the National Science Foundation and, I guess, 
NOAA to ask the National Academies to conduct the survey.
    Chairman Gordon. So, do you agree with their conclusion?
    Dr. Marburger. I agree with many of their conclusions.
    Chairman Gordon. Which ones don't you agree with?
    Dr. Marburger. The one that I don't agree with was the 
recommendation that we put instrumentation that would address 
observational needs back on the NPOESS satellite, which is not 
possible. It will be necessary for us to craft another solution 
to the very serious problems that we recognize and that they 
identified. So------
    Chairman Gordon. And if that is your only problem that you 
have with it, let me ask you this. Why doesn't your five-year 
budget plan for NASA's Earth science plan reflect the funding 
needed to make the outyear investment recommended by the 
National Academies' Decadal Survey?
    Dr. Marburger. We believe that the outyear recommendations 
for observational instrumentation do reflect a priority here. 
These are issues that require long-term planning, and------
    Chairman Gordon. I am sorry, you said reflect the 
priorities. But--are you saying--reflect the priorities of the 
Decadal Survey, or reflect some other kind of priority?
    Dr. Marburger. We believe that the observational platforms 
that gather information required for climate change science and 
other areas of science------
    Chairman Gordon. Weather, NOAA.
    Dr. Marburger.--are very important, and we are very 
concerned about those platforms, and we are prepared to support 
appropriate levels of funding to sustain them in the future. My 
office------
    Chairman Gordon. But is appropriate level less than what 
the Decadal Survey recommended?
    Dr. Marburger. It is possible.
    Chairman Gordon. Well, it is not just possible. I mean, it 
is a fact that it wasn't put in here, so how do you determine 
what is appropriate? Again, this was a two and a half year 
study that was very comprehensive and they made one 
recommendation, but you don't think it was appropriate?
    Dr. Marburger. But sir--the plans to place observational 
instruments on NPOESS------
    Chairman Gordon. Well, that was just one part of it. There 
are 17 different missions------
    Dr. Marburger. Yes.
    Chairman Gordon.--that they were proposing. And you know, 
as we all know, it is (as Mr. Rohrabacher pointed out 
yesterday) disgusting to all of us that $3 billion was wasted 
on NPOESS which would have covered this whole program. Now, 
that is spilt milk, but------
    Dr. Marburger. We agree, and we don't want to throw more 
money after--on new programs without understanding them 
thoroughly. We are working with all of the relevant agencies to 
identify programs------
    Chairman Gordon. I don't think it was new programs. I think 
it was bad management that led to the problem.
    Dr. Marburger. Highly possible.
    Chairman Gordon. Yeah. Well, you know, I--excuse me. I 
don't want to be argumentative, and I have taken more than the 
time that I should have. Let me yield to Mr. Hall.
    Mr. Hall. Mr. Chairman, I would yield you back some of my 
time, if it would help me with you, or help you with Mr. 
Marburger. If you would like to have half of it.
    Chairman Gordon. Well, I think that Dr. Marburger and I 
agree on 99 percent of the occasions. He doesn't write the 
check, and so it is difficult for him to do all that he would 
like.
    Mr. Hall. Dr. Marburger, you hold a very unique position, 
overseeing the--I guess what most people consider the largest 
driver of economic success and progress in our country, science 
and technology, and Mike Griffin, I have had visits with Mike 
during this session and toward the close of last session. I am 
sure our chairman has, because Mike is doing a great job, but 
the Administration has to acknowledge that the budgets that are 
being provided to him are fostering additional delays. There is 
no question about that.
    But we are in a dilemma as to how to handle that situation, 
as to whether to get more realistic now and lessen our 
expectation, or as I have heard the President say a lot of 
times, I know you have to, that we are going to grow our way 
out of this, and that is very possible, because at the 
beginning of this year, lost probably the greatest economic 
boon and drive that this nation has had in a long, long time, 
and we have the ability to overcome, and I think the problem of 
what I have suggested to him is to hold our expectations, and 
continue to expect our expectations, and not give in on them at 
this time.
    As I mentioned in my opening statement, the funding levels 
for the exploration mission at NASA, reductions in this area 
are going to really push back the development of our next 
manned space vehicle, and leave us with a lot longer time gap 
before we can have access to outer space. And I would ask that 
you address the effects this gap may have, in terms of our 
skilled workforce, as well our ability to use the Space Station 
and our obligations to our international partners. Most of the 
$545 million shortfall is going to be borne by the exploration 
systems program.
    And what steps has the Administration taken in response to 
this proposal, and the letters we have written to them 
suggesting they put the half a billion back. Can you just 
generally, in the short time I have left, clear that up for me?
    And do you agree with the fact that we shouldn't yield on 
our expectations and our projections, and our requests continue 
and have some hopes that with a half a percent lessening of 
unemployment raises about $122 billion a year, and we expect 
that to happen, and it is happening. And I think there is a 
possibility that we can hold the schedule, and what are your 
suggestions on that?
    Dr. Marburger. Sir, my main source of information about 
this, and about future prospects, come from Director 
Administrator Griffin, who I agree is doing an excellent job 
there in a very difficult situation.
    It is true that there will be workforce impacts. I believe 
that they will be inevitable in any case, as we transition from 
a Shuttle-based NASA budget to the next generation of equipment 
and operations, but I think that that can be accommodated. It 
certainly is going to be difficult for NASA to achieve what it 
needs to achieve, with the constraints that are emerging in its 
budget situation, and I must say that I don't have the answers 
to all the questions that can be asked there.
    I don't believe that we should retreat from our 
expectations of these programs. I think that we should try to 
find a way to make it work, and I am sure that working together 
with Congress and with the Administrator, we can find ways to 
do that.
    Certainly, this Administration is committed to living up to 
its commitments to its international partners. We are going to 
complete the Space Station. We are going to get some use out of 
it, but we also need to proceed with a design and development 
and construction and launch of this next generation Crew 
Exploration Vehicle. Administrator Griffin feels very 
passionate about this, and I am sure you have heard from him 
and will hear more in the future. And I would tend to support 
his analysis of the situation.
    Mr. Hall. It was a bold statement initially made in fairly 
good times, and it is more bold now to hold onto it, but I hope 
you will encourage those with whom you work and you oversee to 
hold onto that, and not yield to it, and lessen our 
expectations, because I think it is very necessary, one, to 
keep the international partners we have, and keep our word with 
them. A lot of things go on completing this new bird and 
getting into a new era.
    Thank you. I yield back my time, Mr. Chairman. Thank you.
    Chairman Gordon. Thank you, Mr. Hall.
    Dr. Marburger, I think that you will find universal respect 
for Dr. Griffin and his ability, but a $5 billion shortfall is 
just a little too much even for someone of his ability. There 
needs to be more money in this program.
    Our first person here today was Dr. McNerney. We yield to 
you for five minutes.
    Mr. McNerney. Thank you, Mr. Chairman and Dr. Marburger for 
coming down and meeting with us.
    I was reviewing some of the details of the budget here, and 
I see that there is a significant increase in the fusion energy 
sciences allotment. Is there a particular reason that you think 
that there would be a breakthrough in the fusion, or a request 
from other countries? What is the reasoning behind that 
increase?
    Dr. Marburger. Sir, if I am not mistaken, that is 
associated with our commitment to the International Fusion 
Program, whose acronym is ITER, to which we have made an 
investment. This is universally regarded by the fusion science 
community as an essential next step for the very long path 
toward practical exploitation of nuclear fusion for power 
generation, and this is regarded an expensive, but necessary 
investment for our nation to make so we can participate in 
whatever technology comes from that program.
    Mr. McNerney. Well, where do you expect most of the 
construction to be taking place, or most of the research to be 
taking place on that?
    Dr. Marburger. The project itself, the device itself will 
be located in France, after an extended negotiation regarding 
the siting for this, it ended up in France, but research is 
taking place around the world, and the U.S. is a leader in this 
field, and the center of U.S. research in this field is the 
Princeton Plasma Physics Laboratory, operated under the 
ownership of the Department of Energy Office of Science.
    Mr. McNerney. Is most of that research the tokamak type 
technology, or are we looking at inertial confinement fusion?
    Dr. Marburger. There is an inertial confinement component 
to the research that is sponsored by the Department of Energy, 
but the main center at Princeton is tokamak type research, and 
related devices.
    Mr. McNerney. Okay. Moving along, several items here. The 
National Renewable Energy Laboratory has a significant cut 
compared to the '07 budget. What is the reasoning behind that 
cut?
    Dr. Marburger. I believe that the budget numbers don't 
accurately reflect the revenues that are expected by the 
laboratory. As it turns out, the way these laboratories are 
funded depends on ongoing awards during the course of the year, 
and that laboratory does not expect to experience the kinds of 
cuts that you might have inferred from the budget numbers. So, 
they expect to receive awards during the course of the year 
that will add to the numbers that are shown in the book.
    Mr. McNerney. Okay. I am going to reserve judgment on that, 
on that particular issue.
    Dr. Marburger. Yeah, I would be glad to answer in writing, 
to give you a more detailed view of that as I understand it 
from the Department of Energy, the numbers don't accurately 
reflect the actual resources.
    Mr. McNerney. Well, one of the things that didn't make 
sense was it looked like there was a significant increase in 
the solar energy budget, and yet, the NREL budget is going 
down, so I didn't see how that can------
    Dr. Marburger. Yes, it is even possible that some of those 
funds that are in the solar budget would be transferred later 
out to the laboratories, such as NREL. NREL is a laboratory 
that profits from the reallocation of those funds. They don't 
have a budget that is appropriated in quite the same way as 
other branches of the government.
    Mr. McNerney. Okay. Again, I reserve judgment on that one. 
Why the significant cut in geothermal power this year as well?
    Dr. Marburger. I am not sure about that. I think that one 
of the reasons is that geothermal power is regarded as an 
important ancillary power source, but not one of the power 
sources that is likely to have a very large share of 
alternative energy in the future. So, there is some scaling 
back there, and some increase in some other areas that are 
scaled up. We try to respond to proposals from the Department 
of Energy, who are the experts in this area.
    Mr. McNerney. Okay. On to homeland security and the science 
and technology. There seems to be a large bias toward the 
biological and chemical threat, and I guess I understand there 
is a report forthcoming on the assessment of the threat versus 
the risk. Is that report in the works? Are we going to see that 
soon?
    Dr. Marburger. I don't know about the status of that 
report. I do know that there is a continuing study of the 
balance of expenditures on different types of threats to 
homeland security. There is a relatively recent new director of 
the science area there in DHS, who is restructuring the units, 
and undoubtedly will have something to say about this.
    The--so, I would be glad to answer--there are some 
statements in my testimony about it, but I would be glad to--I 
think that the details of that would require a written response 
to a question, I would be glad to provide.
    Chairman Gordon. The gentleman's time has expired, but let 
me make everybody aware that certainly, any written questions 
can be submitted to the witness.
    Dr. Marburger. Okay. Thank you.
    Chairman Gordon. And the gentleman from Georgia is 
recognized for five minutes.
    Mr. Gingrey. Mr. Chairman, thank you. Dr. Marburger, thank 
you for being with us this morning, and I am almost a new 
member to the Science Committee, having a two year gap, but I 
remember back in the 108th Congress, we were beginning to have 
hearings, and more and more information about something that 
sounded new, and that being nanotechnology, and I am 
particularly interested in that, particularly the health 
aspects of it, as a physician, still am a physician, but not 
practicing.
    And also, as a graduate of Georgia Tech, the Georgia 
Institute of Technology in Atlanta, and you know, there is a 
lot of research and development going on there at Georgia Tech, 
and I noticed that over maybe the last seven years, that the 
amount of funding for nanotechnology has, in fact, tripled. I 
believe the current amount in the President's budget proposed 
is almost $1.5 billion. I am pleased with that, but I would 
like for you to particularly to address this issue about the 
health potential of nanotechnology, and I noticed of that 
increased funding in that budget, a large portion of it, after 
you get out of the National Science Foundation, the Department 
of Health and Human Services is, I think, what $5.7 million, 
$28, almost $29 million under the National Science Foundation.
    But tell us, there is not really a question, but discuss 
with us a little bit about what are the health concerns, as we 
continue to develop this technology, and I am absolutely 
convinced that it is something that we need to do, but if you 
could talk a little bit about health concerns in regarding 
that.
    Dr. Marburger. Yes, sir. The health concerns are similar to 
health concerns about new chemicals or new chemical products 
that may escape into the environment and affect drinking water 
or the atmosphere or domestic or interior spaces, and the means 
that we have to address those concerns are similar to what we 
do now for the chemical or bio industries. And through the EPA 
and--particularly in establishing standards for industry.
    All of these relevant agencies participate in the National 
Nanotechnology Initiative, and their activities regarding 
health impacts are monitored. We have conferences and forums 
and monitor the literature, and try to make sure that there is 
investment by those agencies in the necessary research. So, 
NIST and EPA, National Science Foundation, and National 
Institutes of Health are all making investments that are 
relevant to understanding the health impacts.
    Nanotechnology does produce materials that are 
unprecedented, are new, and whose health effects have to be 
studied. So, it is important to make investments in this area. 
We have been watching the investments that the agencies make 
and they are arising. Probably they are arising about as fast 
as the capacity of the research community to do the work. Many 
people have called for even more investments, and I believe 
that more investments will be forthcoming and the interest and 
the capabilities in the research community grow. We are 
certainly not, by no means are we opposed to that. We think it 
is important.
    I might add that the President's Council of Advisors on 
Science and Technology, of which the President of Georgia Tech 
is a member, have a particular responsibility to provide 
oversight for the Nanotechnology Initiative, and they have 
expressed interest in the health impacts, and are watching 
that. I expect that their next report to Congress on this 
initiative will include special attention to the health 
effects.
    Mr. Gingrey. Well, Dr. Marburger, I appreciate you giving a 
plug to the President of Georgia Tech, and I want to make sure, 
Mr. Chairman, that we know what his name is, Dr. Wayne Clough, 
one of my classmates.
    So, thank you, Dr. Marburger, and I will yield back the 
balance of my time, Mr. Chairman.
    Chairman Gordon. Well, if you don't mind, Dr. Gingrey, I 
will take a little bit of your time.
    You have raised a very, very important point, and we are 
going to have more hearings on this later in the year. What is 
happening right now is there are a lot of products, or 
nanotechnology products that are out there already. I am very 
concerned that this field could meet something of the fate that 
the genetic grains did, in the sense that the technology got 
out before the public confidence, and that I think that we have 
got to make sure that one, obviously, that the products are 
safe, but also, if they are not safe, we need to get them off 
the shelf, but if they are safe, we need to have the 
technology, the information, behind us so that the public also 
feels this.
    I think that we are not up to speed on that in this 
country, and this is something that we are going to work on. 
There are some international groups that are working on that. 
This is important technology, but it can all be lost if there 
is not good faith in it. So, thank you for raising that, and 
you will see more of that issue.
    Mr. Mitchell from Arizona is recognized for five minutes. 
Mr. Lipinski, the Vice Chair of the Committee, is recognized 
for five minutes.
    Mr. Lipinski. Thank you, Mr. Chairman.
    I thank you, Dr. Marburger, for your testimony today. I 
wanted to echo a few things that the Chairman has mentioned. As 
a former engineer, and as a Professor, I am concerned about the 
lack of funding for STEM ed in K-12. I just want to echo what 
the Chairman said on that. I think it is critical for the 
future and for our future competitiveness, I know that we are 
having problems with attracting and training more engineers, 
and I think K-12 education is a big part of that.
    I would also want to talk a little bit about the 
Manufacturing Extension Partnership. Manufacturing is very 
important in our country. Sometimes, I think we believe that it 
is an industry that can be replaced by other industries, but I 
think we have to understand that it is critical. If we cannot 
manufacture items, we are not going to be able to survive, 
because it is important to have that here in our country. I 
have certainly seen a lot of manufacturing leave from my 
district, oftentimes going overseas to China. I think we need 
to do more on that, to help our manufacturers in this country.
    And also, on nanotechnology, I think, as the Chairman said, 
we need to make sure that we don't have a situation where 
nanotech is being used in a lot of things already, and people 
don't know about it, and when people hear about nanotechnology, 
they have all kinds of concerns about it, just because they 
simply don't know, and we haven't done enough to let them know, 
and convince them that this is going to be safe, and all of the 
research hasn't been done to make sure it is going to be safe, 
but I think it is critical for the future. At Northwestern 
University, they have a Nanotechnology Center, which I have 
been to, and I really think that it is one of the keys to our 
future economic development in this country, being there, it is 
sometimes called the new Industrial Revolution. I think 
nanotechnology may be that.
    But the one thing I wanted to get into and ask you a little 
bit more about. The President is proposing now a third 
Bioenergy Research Center, through the Office of Science at 
DOE. The state of Illinois is in a great position for this, I 
believe, because we have, obviously, a lot of rich cropland, 
and you know, first rate universities, national labs, and a lot 
of companies that are interested in doing this. The University 
of Illinois at Urbana-Champaign, in collaboration with Argonne 
National Lab, Northwestern University, the University of 
Chicago, University of Illinois at Chicago, and Archer Daniels 
Midland, and others have submitted a proposal for the Bioenergy 
Research Institute.
    I just wanted to know, I want to ask you a little bit about 
what you are looking at, what is going to be looked at in terms 
of where to place these centers. My understanding is there is 
probably going to be one on the East Coast, one on the West 
Coast. Certainly, I think Illinois would be a great place to 
put one in the Midwest. And I just want to know what the 
timeframe is, and what exactly you are going to be looking at 
for the center?
    Dr. Marburger. These centers are an initiative out of the 
Department of Energy, and we rely on them to make those 
judgments. It is their proposal. They are going to run the 
process, and make the decisions. Our responsibility is to make 
sure that they are paying attention, and have a valid sort of 
an objective review process, and I would direct you to the 
Department of Energy for specific responses to the questions 
that you are asking.
    I would agree that Illinois is an excellent center of 
research in this area, and as a matter of fact, I note that 
recently, British Petroleum is funding a center in California, 
of which the University of Illinois is a component.
    Mr. Lipinski. Yes.
    Dr. Marburger. So, they are already in this game, and they 
are a major producer of federally funded research in your 
state. But regarding the specific criteria, and what they are 
looking for, and how they will run this competition, I do not 
have those details, and that will be done out of the Department 
of Energy. Dr. Orbach undoubtedly will be able to address 
those--I will be glad to respond, to help get that information 
for you.
    Chairman Gordon. The gentleman's time has expired, but I 
had a conversation with Dr. Orbach about this yesterday. His 
response was that by virtue of his charge, that he could not 
really say where it is going, because he didn't know quite yet, 
that I think all of the applications had to be turned in in 
December, and that they were reviewing those, and I think in 
the next two or three weeks, they are going to make 
recommendations for the three locations.
    Mr. Lipinski. Thank you, Mr. Chairman. I wanted to thank 
Dr. Marburger also for mentioning the collaboration between 
University of Illinois, University of California, and BP on 
that center. It is something else that I wanted to mention 
there. Thank you.
    Chairman Gordon. Mr. Akin is recognized for five minutes.
    Mr. Akin. Thank you, Mr. Chairman.
    Dr. Marburger, one of the things that I run into, I am on 
the Armed Services Committee, as well. We work with a lot of 
small defense contractors in the St. Louis area, and there has 
been a fairly consistent pattern as I have had a chance to 
visit them, and ask them about what their concerns and 
priorities are, with the lack of being able to find engineers. 
They said about the only engineers there are, is you have got 
to go to China or India or something to get one, and that we 
are not producing enough.
    Now, this is something that they used to do in Harvard 
Business School for case studies, they say don't tell me the 
second or the third most important thing you do. If you had to 
pick one thing that the Federal Government might do that would 
influence this, what would be the single biggest thing that you 
would suggest? (And you don't have to buy the premise, either.) 
If you think the Federal Government shouldn't be involved, I am 
inclined to think that way, too, on many things. So whatever 
you think.
    Dr. Marburger. Well, let me just mention one big thing that 
we strongly support, and that is the Department of Defense's 
National Defense Education Program, which is scheduled for a 
big increase in this budget. You may recall that in my 
generation, when I was going to college, the National Defense 
Education Act made it possible for a lot of young people like 
myself to go into science and engineering fields, and we expect 
that that same phenomenon will happen. This is something that 
strongly affects the Department of Defense. They have a need 
for U.S. citizens to be engineers, and they are willing to fund 
these programs, and as the request------
    Mr. Akin. What exactly--the programs just encourage kids to 
get into science, or are they more scholarships programs?
    Dr. Marburger. They are more like scholarship programs, as 
I understand it. But there is also a very strong correlation 
between sponsored work in engineering and physical science 
areas and the degrees granted, so I regard the ACI itself as 
providing a major stimulus for the production of engineers that 
does respond to this widely recognized need for increased 
engineering production.
    Mr. Akin. Just along the same lines, one of the things that 
my kids were involved with a year or two back was a robotics 
competitions. I mean, I am an engineer, but it might not be the 
best way to get engineers. My engineering came from a horrible 
experience with Latin in eighth grade, and I decided that 
engineering was the one place you didn't have to learn a 
foreign language, so that is why I went there, and I didn't 
know anything about calculus at the time, that it was worse 
than a foreign language.
    But anyway, I guess, if I had to pick something, one of the 
things that kids really like is gee whiz sort of displays and 
exhibits and things, and I am just wondering do we have 
anything like the robotics, where kids get that hands-on. They 
don't sit in a boring classroom, but they get to learn by doing 
stuff. Do we have a way to sort of open the doors of all of the 
different really incredible scientific things that are going on 
for kids?
    Dr. Marburger. Most agencies that fund science or science 
centers, or have federal laboratories also have ancillary 
education programs, little museums or teacher training centers, 
or hands-on experiences. And all of these sort of educational 
experiences are currently being reviewed under the auspices of 
the Department of Education and the relevant agencies. There is 
a committee, I can't remember, its ACC committee, that is 
currently evaluating those programs, and trying to make sure 
that they are as effective as they can be. And we hope that 
this process of assessment will also lead to the sharing of 
best practices.
    But there is a very large number of hands-on programs that 
are funded by agencies like the Department of Energy or NASA, 
you are probably familiar with some of the------
    Mr. Akin. Well, one other quick question. One of the things 
that happened in secondary education was that we changed the 
way we did testing, and we did it so we could fudge. We love to 
fudge numbers. Americans love to fudge on the rules, and what 
we do is we change the basis of the tests every year, so we 
don't really have any benchmark as to how well we are doing or 
not well we are doing.
    My sense is that secondary education is falling very, very 
short in maths and sciences. At least even seven years ago, 
when I was a State rep, the heads of the universities all came 
and cried about the quality of the students they were getting 
out of secondary education in the State of Missouri. I assume 
that may be a national pattern. Any thought on that subject?
    Dr. Marburger. Yes. The ACI does have specific components 
addressing the improvement of teaching of science, particularly 
at the secondary level, and there is an Adjunct Teachers Corps 
proposed, and programs to prepare teachers to teach advanced 
placement subjects, as an example.
    Mr. Akin. Thank you. Thank you, Mr. Chairman.
    Chairman Gordon. Yes, sir. Again, Mr. Akin, I don't want to 
take too much time. You raised some very good points. This 
committee is going to address that with--and I don't guess you 
were here last year, when Norm Augustine reported on his Rising 
Above the Gathering Storm. They have laid out a blueprint for 
us, and I think we are really going to take an initiative 
there.
    Unfortunately, a lot of those gee whiz programs within the 
Administration are being cut back at this time, which is 
unfortunate, but there is some good news. The Department of 
Energy, within their Science Office, is starting a program 
where they are going to bring in science teachers to the 
various labs. They will come in for the summer, have a program 
there, and then, the next year, they will bring their students 
into the lab. I think it is really going to help to inspire 
those, because most every scientist who has come before this 
committee has said the reason they got into science was the 
inspiration of a teacher. Some of the time it was a gee whiz, 
but mostly, it was a teacher. If we don't do anything else this 
year, we need to get that done, and I hope that we will all 
work together to accomplish it.
    Dr. Baird is recognized for five minutes.
    Mr. Baird. Dr. Marburger, thank you for being here today, 
and taking so much of your time. I am going to give you two 
questions, and you can parse out your answer accordingly.
    First of all, I am interested in whether it is your belief 
that NSF should maintain its predominant role, in terms of the 
science education side, or should that be shifted over to the 
Department of Education? And I will share my bias. It is just 
an evidence-based belief, a judgment, that NSF actually has a 
strong tradition, and is certainly the preferred source. I have 
spoken to many, many educational institutions, and they would 
not like to see the NSF education mission shifted over to the 
Department of Education. So, I will put that out, and would 
welcome your response.
    The second part is, is it your belief that the NSF should 
continue its responsibility for the icebreaking mission up 
north, given that basically, it is essentially a pass-through 
to the Coast Guard? Should not the responsibility shifted 
directly over to the Coast Guard, to let NSF focus its 
resources and management on more core missions, and possibly 
have more flexibility regarding its data collection in the 
Arctic region, other than just icebreaking?
    Dr. Marburger. Congressman, I do believe that the National 
Science Foundation has a very important role education. That is 
part of its charter, and indeed, I think it must continue to 
deliver outstanding research and models and ideas that can be 
promulgated throughout our educational establishment at all 
levels.
    Education is a very big issue here. It is a very large 
phenomenon in society, and there is a lot to do, and there are 
different types of things that need to be done. We do have a 
Department of Education that has a major role to play in the 
development of best practices in the classrooms throughout the 
country. And I believe that the Department of Education and the 
National Science Foundation have to work together to deliver 
the parts of the needs to address, the needs that are relevant 
to their specific missions.
    And I think it is necessary to try to figure out who should 
be doing what, and if the Department of Education doesn't have 
the necessary strength or quality controls, then we need to 
make it better, and I know that the Secretary of Education is 
determined to improve the performance of the Department of 
Education in these areas. Educational research that is 
appropriate to the Department of Education has improved in this 
Administration, and indeed, certain types of fundings to 
improve it have been supported repeatedly in our budgets.
    But it is also true that the National Science Foundation 
does have a good track record, in educational research and in 
programs for training teachers, and we think that they should 
continue to do that in their appropriate domain, but I do not 
think that it should all be done out of the National Science 
Foundation, and I don't think it should all be done out of the 
Department of Education. But we need to work together on this 
to make sure who should be doing what.
    So, let me answer the icebreaker question briefly. It will 
be necessary for this nation to maintain its capacity for 
icebreaking and for access to the poles for many reasons. And 
it is essential for the National Science Foundation to have 
access to icebreaking capabilities. Now, from my perspective, I 
don't care how they get it particularly. I think that the main 
concern is to spend the money wisely, and if that means giving 
it to the National Science Foundation, and having them procure 
the service, then so be it. If it means giving the money to the 
Coast Guard, and having them do it, and then provide the 
service, then so be it. But I think, from the highest level 
perspective, it is ``money is money.'' If we can save money and 
have more of it for science, then I would go with that.
    So, we sponsor interagency discussion on this, and we have 
been working the issue, and trying to foster a path for it. I 
know it is currently under intense scrutiny, but the report 
from that group that is working it hasn't been delivered yet. 
It is under review. And I will support whatever the interagency 
agreement is on it. I can't say how it will come out.
    Mr. Baird. Thank you, Doctor. I share the premise. I don't 
necessarily have a dog in the fight. I just think if we can 
spend the money more efficiently, and let NSF focus on its core 
mission, while still having access to the poles, that makes a 
lot of sense.
    I yield back.
    Chairman Gordon. Thank you, Dr. Baird. You know, I have to 
say I agree with Mr. Marburger that there should be some 
balance, but the fact of the matter is that the National 
Science Foundation's 50-year successful program, has been cut 
by 50 percent, just in the last few years. That is not balance.
    Mr. Baird. Mr. Chairman, if I may.
    Chairman Gordon. Certainly.
    Mr. Baird. Mr. Marburger, I appreciate the notion that 
Department of Education has to work with NSF on this, but I 
just want to underscore that in the last few weeks I have met 
with probably 30 or 40 provosts and research directors from 
some of the leading institutions in this country, colleges and 
universities. They are almost unanimous that NSF should be the 
focus of teacher training in the area of sciences, and that is 
where the mission should come from. And they also, actually, 
advocate increasing collaboration and cooperation between the 
discipline-focused sciences and the education side, but they 
think the origin and aegis of that should be NSF, not 
Department of Education.
    Thank you.
    Chairman Gordon. We hear it over and over, before this 
committee and at home, over and over.
    My friend from California is recognized for five minutes.
    Mr. Rohrabacher. Were you referring to me?
    Chairman Gordon. It depends on what your question is.
    Mr. Rohrabacher. Let me, before I ask my question, just 
note, Dr. Marburger, since we are talking about education, and 
this was driven home to me yesterday. I am trying to expand 
nursing programs at our junior colleges in my district, and in 
our area. And well, and the reason why it is so difficult for 
our junior colleges to do that is that the unions of the 
professors of these various colleges are saying no, you cannot 
pay someone who is teaching nursing and medical type of courses 
more money than you pay someone who is teaching English 
literature or history; and thus when we have this dramatic 
shortage of nurses, we are unable to establish programs that 
will result in more nurses for our society. And there are 
wonderful jobs that are available for people with nursing 
degrees and teaching, and very few jobs that are available for 
people with English literature degrees. Just yesterday, I was 
trying to meet with the educators from my area on that issue, 
and the same is true with science education and mathematics in 
high school and junior high school.
    If we could just break through this hold that unions have 
on ``everybody else should be paid exactly the same, whether 
you teach basket-weaving or physics,'' we would have better 
teachers going into these fields, and it wouldn't cost a lot of 
money. That is just one thing that I am just throwing out, so 
when you are discussing this with other people, maybe we should 
focus on that, to try to change the structure that we have, so 
that we can recruit teachers and pay them more money, in order 
to get higher quality people, without having to pay basket-
weaving teachers or physical education teachers more. I am an 
athlete and I appreciate that, but a fifth grade physical 
education teacher should not be getting--we should not be 
neglecting a mathematics or science teacher at that level, who 
will get a better job elsewhere, because we can't pay them more 
money, in order to pay the phys ed teacher, or the guy who 
watches the kids when they are on recess.
    So, anyway, that is a thought. I was noticing in the budget 
summary here that biomass is only receiving a $15.8 million 
expenditure, and yet, the President has mentioned switchgrass 
and biomass a number of times, and people who I talk to suggest 
that biomass has a tremendous potential, and in fact, I notice 
then you have got $160 million for fusion energy research, and 
let me just note there--the studying that I have done on fusion 
shows that there has been, over the years, billions of dollars 
spent, and I am going to see some people in my office just this 
week on this issue, and I have yet to identify really 
significant progress that has been able to be implemented to 
show any difference in our way of life, as compared to the 
potential of biomass.
    So, are we not loading down the establishment, which you 
have so many people who pay their salaries of their scientists 
at their universities, but not really having so much to show 
after ten years, versus biomass that has a tremendous potential 
that could be put to use very quickly, even with the 
President's own words?
    Dr. Marburger. Certainly, biomass is a very important 
option for energy for the future, and this Administration does 
support biomass research and development.
    Mr. Rohrabacher. But only $15 million worth.
    Dr. Marburger. Well, my notes indicate that in the 
Department of Energy, there is $292 million for biomass R&D.
    Mr. Rohrabacher. Okay.
    Dr. Marburger. And we can discuss exactly where the numbers 
come from, but we have got here $179 million for the Biofuels 
Initiative. There is an additional $113 million in supporting 
basic research to (and this is directly related to the 
cellulosic issue, which we really need to have breakthroughs 
in).
    Mr. Rohrabacher. I see.
    Dr. Marburger.--if we are going to make this. So------
    Mr. Rohrabacher. Okay.
    Dr. Marburger. So, we have a disagreement------
    Mr. Rohrabacher. Well, thank you.
    Dr. Marburger.--about the numbers that------
    Mr. Rohrabacher. Okay. I am just------
    Dr. Marburger.--we can straighten out.
    Mr. Rohrabacher.--reading the figures, then, and I 
appreciate you------
    Dr. Marburger. It is easy to do, Congressman.
    Mr. Rohrabacher. Yeah. I appreciate you clarifying this. 
And one fundamental question, if I may. You know, we had this 
hearing here yesterday with the decadal report, which was very 
impressive, and I was impressed by the fact that they offered 
practical suggestions, rather than just, you know, shovel more 
dollars in our direction, which is far too often what people 
are suggesting. Shovel more dollars, and we are going to have 
more progress. They actually made some very tangible 
recommendations, and they made some observations about the 
minimum necessary to do this and that, to accomplish very 
admirable goals, and not just some, ``well, we are going to 
prove global warming,'' but instead, ``we are going to 
determine how we are going to affect people's lives,'' et 
cetera. But here we have $500 million, which they claim they 
need to spend more, and I mentioned that we had this, of 
course, $3 billion overrun with NPOESS, which was very 
disheartening.
    But along with NPOESS, we have to recognize there is a war 
going on in Iraq, and today I am supporting the President's 
surge request, and I have had to do a lot of praying about 
this, and a lot of thought about this, because we are talking 
about, Mr. Chairman, we are talking about billions and billions 
of dollars every month, and here, for the Decadal Report, that 
was just asking for $500 million a year.
    Is this Iraq situation really having a major impact on 
science in our country?
    Dr. Marburger. I am not sure that is a scientific question. 
Congressman, I try to work within the realm of the possibility 
and the practical. What I can say is that the United States is 
spending an enormous amount of money on research. We far 
outspend any other country, and all of Europe on our research 
budget, and so there is a lot of money on the table, and it is 
not just a question of dollars.
    Actually, Chairman Gordon has made this point, there is a 
question of priorities, and we have to negotiate and discuss 
what the priorities are, and try to come up with something that 
we can agree to fund. And I think we will do that. But it is 
not just a question of money. We have got to spend this money 
wisely. As science becomes more expensive, and there is more 
and more demand for whatever funding we put on the table, I 
think we owe it to the American people to do the best job we 
can at identifying what is the most important thing, what is 
the most important, way to spend the money, and that is what I 
am dealing with.
    So, I would say that science is doing very well in this 
country, but we need to keep our eye on the ball, and make 
these adjustments as we go along to make sure we are spending 
it in the right place.
    Mr. Rohrabacher. Well, thank you very much. I won't push 
you any further on that question.
    Chairman Gordon. The gentleman's time has expired. I will 
say that, I guess the good news and bad news is that yes, the 
country is spending a lot of money on science. However, as a 
percent of our GDP, it is continuing to go down, and it is 
lower than many other countries.
    But to the Administration's defense, bioresearch, mass 
research, has been a priority. And I think that hopefully, we 
are going to see some breakthroughs there, particularly in the 
areas of new enzymes. Five minutes to Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Gordon, and welcome back, Dr. 
Marburger. I am pleased to see you here, and I hope you will 
soon be fully recovered.
    As you know, I have been very active on STEM education, 
science, technology, engineering, and math education. We formed 
the STEM caucus. We have over 100 members of Congress as 
members, and the Senate has decided it is such a good idea, 
they started their own. So, it is no surprise that I will be 
asking about some issues relating to STEM education.
    First of all, just for starters, how, if at all, is the 
work of the Academic Competitiveness Council reflected in the 
Fiscal Year '08 budget request for STEM education? And as you 
know, they were appointed to advise the Administration on many 
of these issues. And I am not sure they have fully reported 
yet, but has their report------
    Dr. Marburger. Yeah, very briefly. The work of that 
committee was going on more or less in parallel with the 
preparation of the budget, so it did not have an opportunity to 
have a major impact on it, but I don't doubt that it will in 
the future.
    Mr. Ehlers. I appreciate that, and I hope that it will have 
a major impact on the budget. Another issue is regarding the 
National Science Foundation educational programs, and you know, 
I don't hold you responsible for this, because I know who was 
responsible for the past decisions, in which money was 
basically taken away from the National Science Foundation 
education effort and moved over to the Department of Education. 
And I have absolutely no problem with the Department of 
Education, after many years without much interest in this, 
finally showing an interest, and I appreciate Secretary 
Spellings' very hard work on it, and her very strong feelings 
about doing it.
    That is not the point. The problem is, as I told her, why 
take the money away from NSF? They are the ones who have been 
doing it for 50 years, and have done an outstanding job. They 
were the ones who will be doing it 50 years from now, whereas 
the Department of Education changes much more rapidly, and with 
a new President coming in, we may not have a math science 
effort in the Department of Education.
    I appreciate what you have been able to do with the NSF's 
budget, but I wanted to emphasize, and I hope you will agree 
with this, that this a major issue. The NSF has done great work 
on it. The interesting thing is they also do the groundbreaking 
work, and the best evaluative work of anyone in the business, 
in this country or other countries. And I hope you can join 
with us in making the entire Administration aware of this, and 
help us in our efforts to increase funding, for that part of 
NSF, as well as the other increases they have received.
    I would appreciate your comments on that.
    Dr. Marburger. Well, I think this year's budget request by 
the President for the National Science Foundation should be 
good news for those who value the education component of NSF. 
It does respond to favorable reviews of the quality of the work 
that NSF does, particularly in the areas that you mentioned, 
Congressman.
    So, in that respect, some of the work that was done in 
connection with the ACC exercise did affect thinking about the 
value of that work and the quality of it in NSF, and so, this 
year's budget does reflect increases for the education and 
human resources section of the National Science Foundation. I 
expect that will continue.
    Mr. Ehlers. I hope it is not a one year blip, but in fact, 
an indication of a changed policy, and that the ACC report 
coming up, I think it is in April you get the report. I would 
hope that next year's would show an even greater increase.
    So, one last question. Yesterday, we had a hearing in this 
very committee on the Earth Science Decadal Survey, and all of 
the Committee Members who were present here recommended that 
OSTP should develop and implement a plan for sustaining global 
Earth observation, and a single point of contact or program 
office at the cabinet level should be established to assure 
complementary efforts for all operational aspects of Earth 
observation and analysis. And those are precisely their words, 
and they all stood by those words.
    Do you see something of this sort happening? The general 
feeling is that Earth science, as looked at from outer space, 
has decreased. The past few years, there has been less 
emphasis. Will we be able to turn that around, and get back to 
where we were?
    Dr. Marburger. Earth observation is one of those areas that 
affects a lot of agencies, and it is certainly ripe for an 
interagency coordination activity. There are precedents for 
national coordinating offices. We have them for the National 
Nanotechnology Initiative, and for the Networking and 
Information Technology R&D Initiative, both of which are 
congressionally mandated operations, so there is a precedent 
for that. I believe that those two national initiatives are 
working well under that structure that Congress has 
promulgated. So, it certainly would not be out of the question 
to have something like that occur.
    Mr. Ehlers. Well, everyone on this committee (I believe, I 
think I can speak for everyone) was impressed by the results 
that we heard yesterday, and would certainly welcome an 
administrative initiative on this.
    Thank you very much. I yield back, Mr. Chairman.
    Chairman Gordon. I thank you, Dr. Ehlers.
    Dr. Marburger, I did not put Dr. Ehlers up to any of those 
questions. I think it demonstrates, once again, there is a 
bipartisan interest in the Augustine recommendations, and 
again, I don't mean to be argumentative, and if I am wrong, I 
stand corrected, but your office and the President had those 
recommendations long before this budget came up.
    You know, those recommendations were ignored. They are not 
reflective of this budget. Again, I won't go over the 
statistics once again, but for Dr. Ehlers' interest, the 
education aspect of K-12 in National Science Foundation has 
been reduced by 50 percent over the last three or four years. 
We do have great bipartisan interest in this.
    Again, I know you are a spear-carrier, but we are going to 
have to get together, and see if we can't work this out. This 
is important, on a bipartisan basis for this committee. You 
have heard it, again, without any kind of orchestration. I 
won't belabor that, but I thank you for your presence today, 
for dealing with the variety of issues that were before you, to 
still get here.
    And I excuse the witness and adjourn this committee.
    Dr. Marburger. Thank you.
    [Whereupon, at 11:36 a.m., the Committee was adjourned.]


                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by John H. Marburger, III, Director, Office of Science and 
        Technology Policy

Questions submitted by Chairman Bart Gordon

National Institute of Standards and Technology (NIST)

Q1.  The FY08 NIST budget request looks like a case of robbing Peter to 
pay Paul. For example, the cut to MEP and elimination of the ATP just 
about offset the increase for lab funding and construction. It seems 
that rather than requesting any new funding for NIST, you are just 
rearranging the deck chairs. Could you tell us the specific criteria 
that are used for determining the NIST budget allocations and 
priorities?

A1. The President's budget request for NIST prioritizes the core 
research operations which are likely to have long-term payoffs 
significantly greater than the short-term impacts of ATP and MEP. Such 
long-term impacts are the primary objective of the American 
Competitiveness Initiative. It should be noted that the NIST budget has 
been earmarked in the past at levels much greater than the President's 
requested increase.

Q2.  Since 2001, we have lost 2.9 million manufacturing jobs and last 
year alone we lost another 110,000 manufacturing jobs. These jobs are 
high-skill, high-wage jobs that on average pay 23 percent more than the 
national average. It is these types of high-wage jobs which are the 
backbone of communities across the country.

     NIST just released an impact assessment of the MEP program. In the 
2005 survey of only 30 percent of MEP clients, they reported:

        <bullet>  $6.3 billion in increased/retained sales;

        <bullet>  $2.2 billion in modernization investment; and

        <bullet>  53,000 jobs created or retained.

     These documented results represent only a small portion of the 
MEP's total impact. And, the results come from a federal investment of 
only $104 million. What other federal programs to support manufacturers 
show a similar documented return on investment? Given the MEP's success 
rate and that small- and medium-sized manufacturers are struggling in 
the face of global competition, what is the justification for cutting 
the MEP budget by more than 50 percent?

A2. NIST meets the Nation's highest priorities by focusing on high-
impact research and investing in the capacity and capability of NIST's 
user facilities and labs. This emphasis is validated by the high rate 
of return to the Nation that the NIST labs already have demonstrated. 
Nineteen retrospective studies of economic impact show that, on 
average, NIST labs generated a benefit-to-cost ratio of 44:1 to the 
U.S. economy. The high rate of return results from the fact that new 
measurements or standards benefit entire industries or sectors of the 
economy--as opposed to individual companies.
    The President's request will ensure that funding goes to vital 
basic research to strengthen the Nation's innovation enterprise vital 
to manufacturing--especially in the areas of physical sciences, 
engineering, computing, and nanotechnology--instead of subsidizing 
research and consulting services that should be funded by private 
industry. Creating an innovation environment by supporting basic 
research has the highest payoff for all of society, including industry. 
Basic research results which can be used by a variety of researchers in 
academia and industry are much more important to economic development 
than are subsidies, through the Manufacturing Extension Partnership 
(MEP) program, that benefit particular firms and their shareholders.
    MEP Centers provide manufacturing firms with consulting services 
that are also available through private entities. Given the benefits 
reported by MEP clients, it is reasonable to have these clients share a 
larger proportion of the cost of these services. The FY 2008 Budget 
request would maintain a network of MEP centers that are funded 
according to their performance and need, and would encourage these 
Centers to be more efficient by reducing their overhead costs, 
including high marketing costs. As first created in 1988, the MEP 
program anticipated that centers should become self-sufficient after 
six years of federal funding, which has not happened. Centers could 
also ask MEP clients to cover more of the cost of the services through 
modestly increased fees.

Q3.  In FY 2003, the Administration requested $13 million for the MEP, 
in FY 2004--$13 million, in FY 2005--$39 million, in FY 2006--$47 
million, in FY 2007, $46 million and in FY 2008 $46 million. Each year, 
the Administration provides a different and vague justification for 
cutting the program: it's not necessary, the private sector can perform 
all the tasks, other federal agencies will make up the funding 
shortfall, or that federal funding was not supposed to last beyond six 
years and this year that approximately 20 percent of MEP clients have 
more than 250 employees and therefore they can charge more for services 
and federal funding can be reduced.

     Will you provide us the analysis that you have done to justify 
these claims and how the centers will absorb the proposed reduction. In 
addition, discussion of business size is a new issue. The Small 
Business Administration categorizes any business of less than 500 as 
small. Is the Administration seeking to redefine what qualifies as a 
small business?

A3. The cost savings and efficiency improvements reported by 
manufacturing clients of MEP Centers result in reducing costs to MEP's 
clients and could be used to support increased fees for future MEP 
Center services. The annual reported benefits by manufacturing clients 
of the MEP Centers conducted through an independent survey demonstrates 
a significant level of cost savings and efficiency improvements for the 
MEP clients. For example, the latest MEP client survey results 
(released January 2007 and reflecting FY 2005 benefits) suggest that 
MEP helped 16,448 clients increase and retain sales of nearly $6.3 
billion; and generated cost savings of just over $1.3 billion (both 
recurring and non-recurring). These benefits, resulting in reduced 
costs and increased profits for the client, could be used to support 
increased fees for future services. With increased revenues streams 
from client fees, MEP centers may offset the reduction in federal 
funds.
    The data describing the fraction of MEP business serving clients 
with more than 250 employees was provided by the MEP in their analysis 
of their business (``Making a Difference for America's 
Manufacturers''), and was not a delineation chosen by the 
Administration.

Q4.  Approximately $104 million is required to maintain a fully 
operational network of MEP Centers. What will be the impact of the 
Administration's proposed 56 percent cut on the current network of 
Centers and the level of services that they provide?

     Could you please provide us with the impact assessment that has 
been done by the Department of Commerce? The FY 2008 budget request 
indicates that with the $46 million for MEP, only a subset of Centers 
will be operational. What will this smaller system look like--will 
there be an emphasis on regional centers or will some states simply 
lose MEP coverage?

A4. The MEP Director will work with the centers to develop options that 
consider each center's customer base, constraints, and opportunities. 
Actions taken by any center or group of centers will be assessed 
against their ability to maintain support to the small manufacturers. 
MEP will work with the centers to examine alternatives and optimize the 
best plan for operating at the $46.3 million level that ensures the 
maximum benefit to small manufacturers.

Q5.  The Administration has justified the elimination of the Advanced 
Technology Program (ATP) because of a growth of venture capital funds 
and other financial services for high risk technology, yet this 
committee has heard repeatedly during the past five years that venture 
capital funds for high-risk technology development are scarce. Could 
you provide us with the documentation that supports the 
Administration's claims?

A5. The Administration believes that other investments in cutting edge 
basic research, the tools of science and the next generation of 
scientists are the best way to lay the groundwork for continued 
leadership in innovation, exploration and ingenuity. Since the ``dot-
corn bubble'' burst, venture financing has resumed growth. According to 
Dow Jones venture capital data, venture capital activity in 2006 is at 
a five-year high both in terms of the number of deals (2,454) and the 
total capital investment ($25.75 billion). There is no evidence that 
the distribution of venture capital funding is not the best response to 
market demands.

Q6.  The Administration has justified abolishing the ATP because it 
only benefits single companies and not industry at large. The 
Administration claims that the American Competitiveness Initiative will 
not impact individual companies but will be broad-based. The ATP's 
mandate is that it can fund projects that will only have broad industry 
impacts beyond a single company's private profit. I'll cite just a few 
examples of broad impact ATP projects: the two millimeter projects 
which helped the entire U.S. auto industry, the Affymetrix DNA 
diagnostics project, and the Integrated Circuit projects. In addition, 
the Administration funds many industry lead tech programs at the DOE. 
Why doesn't the ATP fit within the scope of the Administration's 
policies and current activities?

A6. The ACI is about prioritization within limited resources. While the 
ATP program has had some successes, reviews by the GAO found that ``it 
is not evident that ATP funding was actually needed for individual 
projects to achieve these results.'' For example, the two-millimeter 
project involved the Big 3 automobile companies. It is hard to see how 
several million federal dollars would enable Big 3 Auto to do something 
that they could otherwise not afford to do or that would not otherwise 
get done. Additionally, a survey of ATP clients indicated that 75 
percent would have continued their project would have continued in some 
form without ATP funding. For these reasons, the ATP program simply 
cannot compete with NIST's Nobel-Prize-winning basic and applied 
research as a federal priority.

National Science Foundation

Q7.  The FY 2008 budget request for the National Nanotechnology 
Initiative (NNI) is $1.45 billion, which is roughly four percent above 
the FY 2007 funding estimate. As you are aware, there have been many 
calls from academia and industry for a more robust and more tightly 
focused research effort on the environmental, health and safety (EHS) 
aspects of nanotechnology. The funding allocated for EHS research under 
the NNI program has been about three percent of the total program, and 
some outside groups have claimed this is an overly optimistic estimate. 
How does the FY 2008 budget for the NNI reflect these repeated calls 
for significant growth of funding for research in this area?

A7. NNI participating agencies are committed to supporting EHS aspects 
of nanotechnology, and their allocations to these programs has been 
increasing to match the flow of qualified proposals in this area.
    The amount of funding that is going to programs whose primary 
purpose is to understand and address potential risks to health and to 
the environment posed by nanotechnology is up 55 percent over 2006 
actual expenditures and up 28 percent over the 2007 request. [Estimates 
for FY 2007 spending in this area based on appropriations are not yet 
available.] These estimates do not include substantial research on 
instrumentation and metrology and on fundamental biological 
interactions upon exposure to nanomaterials, both of which will be 
important in the performance and interpretation of toxicological 
research. In addition, research to determine toxicity is a lengthy 
process; increased spending cannot shorten the time it takes to do 
certain types of toxicological studies.
    The Nanotechnology Environmental and Health Implications (NEHI) 
Working Group, the interagency group that coordinates EHS research 
under the NNI, is in the process of prioritizing the EHS research needs 
based on the report released in September 2006 entitled Environmental, 
Health, and Safety Research Needs for Engineered Nanoscale Materials. 
The NEHI Working Group reports are developed by consensus, however 
final budget allocations are made by the individual agencies in the 
context of their respective missions and requirements.

Q8.  Funding for the National Information Technology Research and 
Development (NITRD) program is held flat in the FY 2008 request. 
Although the NSF funding contribution for NITRD grows by $90 million, 
or 10 percent, the NIH contribution drops by $78 million, or 14 
percent. Given the value of information technology to advancing medical 
research and improving the efficiency and lowering the cost of health 
care delivery, what is the rationale for this drop in NIH funding for 
the principal federal R&D effort in information technology?

A8. For the past several years, the NITRD budget estimates for NIH have 
exceeded actual expenditures after appropriations. For example, NIH's 
budget estimate for NITRD for 2006 as reported in the 2007 Budget 
Supplement was $500.6M, whereas the actual expenditures on projects 
that competed successfully were $432M. Similarly, the NIH budget 
request estimate for 2007 was $490.7M, whereas after receiving the 
final FY 2007 appropriations level, the estimate was revised to $426M. 
The actual expenditures will be determined by the number of projects 
that successfully compete in FY 2007.

Department of Energy

Q9.  The Administration appears to place low priority on energy 
efficiency programs. (The Federal Energy Management Program, Industrial 
Technologies, and Weatherization Assistance are all slated for cuts in 
the FY 2008 budget request.) Given the effectiveness of energy 
efficiency at reducing greenhouse gas emissions and reducing consumer 
costs, why are these programs getting short shrift?

A9. The reduction in Weatherization Assistance enables DOE to spend 
more on priority programs in the President's Advanced Energy 
Initiative, such as solar energy and biofuels. Even so, DOE plans to 
weatherize more than 54,000 homes with FY 2008 funding. The FY 2008 
request for Industrial Technologies ($46M) and the Federal Energy 
Management Program ($17M) are essentially the same as the FY 2007 
request in those areas.

Q10.  A report released in January by the Massachusetts Institute of 
Technology found that geothermal energy could supply a substantial 
portion of the United States' future electricity requirements with 
minimal environmental impact and probably at competitive prices. Given 
the promise of this often overlooked technology, why is the 
Administration trying to completely cut all R&D in this area?

A10. Over 30 years of federal funding in this area has contributed to 
successful commercialization of improved geothermal technologies. 
Therefore, policy efforts are now focused on encouraging industry to 
build new geothermal plants. For example, EPACT 2005 enacted several 
incentives for geothermal power, including attractive lease royalties, 
streamlined leasing procedures, and a 1.5 cents/kWh production tax 
credit. Largely as a result of these incentives, there are currently 58 
geothermal construction projects underway in nine states, representing 
2,250 MW of new generating capacity (compared to 2,800 MW of existing 
U.S. geothermal capacity).

Q11.  The budget requests close to $200 million to invest in vehicle 
technologies, particularly plug-in hybrid technologies. At the recent 
Detroit Auto Show, GM announced their plans to produce a plug-in hybrid 
by 2010. Could you talk about the process of commercializing DOE energy 
research? Could you talk about how DOE research is intersects with R&D 
that is occurring in the private sector, what is being done to avoid 
duplication of effort, and how DOE advancements will make it into the 
commercial market quickly and smoothly?

A11. The DOE FreedomCAR and Fuel Partnership, with cost-shared funding 
through the DOE Vehicle Technologies program, is a government-industry 
partnership that conducts technology roadmapping and prioritization of 
jointly funded research and development activities in this area.
    This collaboration seeks to minimize duplication of effort and 
accelerate commercialization of advanced vehicle technologies. Industry 
partners include BP America, Chevron Corporation, ConocoPhillips, Exxon 
Mobil Corporation, Shell Hydrogen LLC, and the United States Council 
for Automotive Research (USCAR)--a legal partnership among 
DaimlerChrysler Corporation, Ford Motor Company, and General Motors 
Corporation. The key technology hurdle for plug-in hybrid vehicles is 
advanced energy storage, which receives $42M in the FY 2008 request, an 
$11M increase (+35 percent) over the FY 2007 request.

Q12.  According to the Energy Information Administration, hydropower 
currently provides seven percent of U.S. electricity supply, yet the 
Administration has requested zero R&D funds for this technology. Are 
advances in hydropower efficiency and even small-scale hydropower not 
worth investigation?

A12. Market barriers to private sector investment in hydropower R&D are 
minimal. Therefore, consistent with R&D Investment Criteria on the 
necessity of market barriers to justify federal investment, the 
decision has been made to close out the Hydropower Program.

Q13.  Why has funding for R&D in Electricity Delivery and Reliability 
been cut 10 percent (from $95 million to $85 million) when there is 
significant work to be done in modernizing and securing the Nation's 
electricity grid?

A13. The decrease in funding reflects a refocusing of the High 
Temperature Superconductivity (HTS) activity. In FY 2008, the program 
will not focus on development of HTS motors and generators, an activity 
initiated prior to FY 2006. Instead, the program will primarily support 
the development and commercialization of superconducting cable systems 
and wires, which could improve the capacity of electricity transmission 
and distribution in urban areas.

Q14.  The President is proposing to develop three Bioenergy Research 
Centers through the Office of Science at DOE--up from two proposed in 
the original plan. What technical or scientific areas will the third 
research center investigate that are not being addressed by the other 
two?

A14. The third Bioenergy Research Center will increase the overall 
research capability of the DOE Genomes-To-Life (GTL) program to address 
barriers to commercial feasibility of key energy technologies. In its 
2006 review of the GTL program, the National Academies recommended that 
GTL facilities focus not on particular technologies, but on fundamental 
research that underpins bioenergy technologies. Consistent with this 
recommendation, each of the three Bioenergy Research Centers will have 
long- and intermediate-term visions in bioenergy research, with 
sufficient flexibility to allow adjustments in research directions in 
response to promising developments. These Centers are envisioned to 
serve as catalysts for bioenergy-related research supported by the 
broader GTL program.

Q15.  Despite the Administration's enthusiasm for the project, the 
Global Nuclear Energy Project has received an unenthusiastic reception 
in Congress. As you know, there are major concerns about whether the 
project will prove to be worth the enormous costs forecast for the 
coming years. What can you tell us today to allay these concerns and 
convince us that the project warrants a 400 percent increase in funding 
over FY 2006 levels, and even greater increases in years to come?

A15. The Budget provides $395 million for GNEP R&D and related 
activities, including design work on engineering- and commercial-scale 
facilities, economic analysis, and alternative business plans needed 
for a Secretarial decision by June 2008 on the future direction of the 
program. Funding for GNEP is for essential research and design 
activities. No funds are provided for procurement of equipment, 
facilities or construction activities on any reprocessing, advanced 
burner reactor, or fuel cycle facility.

Q16.  The FY 2008 budget request once again proposes to eliminate R&D 
in Oil and Gas, and even goes as far as asking Congress to repeal a 
provision in EPACT 2005 in this area. Contrary to the assertion that 
these were handouts to the super-major oil companies, these programs 
actually focused on developing technologies for difficult-to-reach 
deposits on shore and in the ultra-deep waters of the Gulf of Mexico, 
and to some extent for companies that otherwise cannot afford such 
expensive R&D. At a time of record high prices for both oil and gas, 
and widespread concern about our over-reliance on foreign energy, does 
it make sense to slash programs that increase supply, allow smaller 
independent producers to compete in a market with the super-majors, and 
ultimately drive down costs of these fuels?

A16. Oil and gas are mature industries and both have every incentive, 
particularly at today's prices, to enhance production and continue 
research and development of technologies on their own. Oil companies, 
along with the oil services industry, have shown remarkable engineering 
prowess, including when it comes to offshore engineering. There is no 
need for taxpayers to subsidize oil companies in these efforts. The 
Administration's Research and Development Investment Criteria direct 
programs to avoid duplicating research in areas that are receiving 
funding from the private sector, especially for evolutionary advances 
and incremental improvements.
    The 2008 Budget proposes to expand access to oil and gas resources, 
streamline permitting processes, and make the R&D investment tax credit 
permanent. These changes will leverage private sector ingenuity and are 
preferred ways to increase domestic production of oil and gas rather 
than federally funded R&D. The Department expects the service industry 
to continue to provide technological innovations for use by major and 
independent producers.

National Oceanic and Atmospheric Administration (NOAA)

Q17.  The National Weather Service (NWS) received a substantial 
increase in the President's FY 2008 request including an expansion of 
the Tsunami Warning Network ($17.2 million). How will this increase in 
funding translate into faster and more accurate warnings for tsunami's 
worldwide?

A17. Note: The increase in NOAA/NWS funding for Strengthening the U.S. 
Tsunami Warning and Mitigation Program is $1.7M, not $17.2M as stated 
in the question.
    The total funding for the NOAA/NWS tsunami program for FY08 is 
$23.2M. This $23.2M fully funds the extended warning operations of two 
Tsunami Warning Centers (Pacific Tsunami Warning Center, Ewa Beach, HI 
and the West Coast/Alaska Tsunami Warning Center, Palmer AK) into 
round-the-clock, fully staffed centers serving the Pacific and Arctic 
Ocean regions, the Atlantic Ocean, Caribbean Sea, and Gulf of Mexico, 
as well as interim warning information for the Indian Ocean. NOAA is 
also working to facilitate robust tsunami detection including 
deployment, operation, and maintenance of the 39 DART buoy station 
network. Of these 39 DART stations, 32 are sited throughout the Pacific 
Rim--which historically is the most active seismic source for tsunamis. 
These 32 DART stations will provide timely and effective tsunami 
detection for just about all countries that border the Pacific Rim. In 
addition, of the seven DART stations to be sited throughout the 
Atlantic-Caribbean Sea-Gulf of Mexico, five DARTs will provide accurate 
and timely tsunami warnings of a tsunami generated in the S. Atlantic/
Caribbean Sea. Upgrades of eight seismic stations and 33 Tsunami-ready 
sea level stations, as well as the addition of 16 new sea level 
stations, enhance and modernize the existing system to increase 
coverage and accuracy of forecasts and warnings.
    Improvements in the forecast system include advancing coastal 
mapping, hazard assessment, and inundation modeling for all vulnerable 
areas. USGS seismic station expansion, especially in the Caribbean, and 
integration with other U.S. and global ocean and coastal observation 
systems will improve NOAA/NWS ability to more rapidly determine the 
location and magnitude of seismic events that might trigger a tsunami. 
NOAA is also creating and leveraging partnerships through the National 
Tsunami Hazard Mitigation Program to develop capacity for community-
based hazard mitigation to improve preparedness of at-risk areas in the 
U.S. and its territories. It is an integrated Federal Government 
program with State, community and global partners.

Q18.  The budget request cuts nearly $4 million in the NOAA budget for 
NASA-NOAA Partnerships to transition research into operations. The 
transition of research missions of NASA into operational systems at 
NOAA is a perennial problem. Why were these funds cut? What activities 
are eliminated due to this cut? What is the Administration doing to 
address this problem?

A18. This item has never been included in the Administration's budget 
requests for NOAA. Congress provided funds for this program through 
earmarks in FY 2005 and FY 2006. With regard to FY 2007, under the 
terms of the year-long continuing resolution, NOAA has indicated that 
it has been able to provide $3.7 million for this effort under the 
terms of the year-long continuing resolution. However, this item was 
not included in the FY 2008 budget request as NOAA will be continuing 
this work as part of its core operations.
    NOAA and NASA have formed a Joint Working Group on Research to 
Operations to improve interagency coordination, information-sharing and 
planning on this topic. Both agencies have indicated that they are 
committed to finding effective long-term solutions to the long-standing 
problem of financing the transition of research data products into 
operational data streams. OSTP has an interest in this issue as well, 
and will monitoring these coordination efforts.

Questions submitted by Representative Eddie Bernice Johnson

Q1.  I have serious concerns about cuts to NASA's aeronautics research 
and development programs, as well as its education programs. Will these 
programs see further cuts, while human space exploration initiatives 
will see only modest increases? How will this affect the local 
workforce?

A1. NASA has made significant progress in reformulating its approach to 
aeronautics research by aligning its aeronautics activities with the 
President's recently issued National Aeronautics Research and 
Development Policy, with the purpose of advancing U.S. technical 
leadership in aeronautics. In conjunction with this effort, NASA is 
collaborating with the broad research community, including industry, 
academia, and other government agencies. The FY 2008 budget request for 
NASA's aeronautics programs includes programmatic content increases in 
excess of $270 million from FY 2008 to FY 2012 relative to the 
President's FY 2007 request.
    Education is and will continue to be a fundamental element of 
NASA's activities, reflecting a diverse portfolio of pre-college, 
informal and higher education programs. The funding requested for NASA 
Education activities in the FY2008 President's Budget Request should be 
sufficient to maintain NASA's efforts to provide content, resources and 
facilities in support of workforce development.
    Regarding its workforce, NASA has recently instituted the 
responsibility of monitoring and managing the workforce at an Agency-
level, rather than at a programmatic level, in order to better 
integrate workforce considerations into early program and budget 
planning and to continue identifying the skills the overall Agency will 
require in the future. It would be premature to attempt to predict the 
impact of funding decisions on a center-by-center basis at this 
juncture. The workforce required by any program (including Aeronautics 
and Education) will be balanced against the workforce requirements of 
the agency as a whole, and ultimately reflected in the workforce 
maintained at each center.

Q2.  I am pleased to see that fusion energy funding will be increased, 
especially the International Thermonuclear Experimental Reactor (ITER). 
The U.S. must contribute its fair share in international clean energy 
research and development activities. What is the time frame for fusion 
reactors to be used commercially? Is nuclear energy research at a place 
where we can guarantee safety and minimize waste?

A2. ITER will, if successful, move towards developing fusion's 
potential as a commercially viable, clean, long-term source of energy 
near the middle of the century.
    U.S. nuclear plants have an outstanding record of safety and 
reliability throughout the last 15 years, and we will continue to place 
safety as our highest priority in future nuclear programs. The Global 
Nuclear Energy Partnership proposes to close the fuel cycle 
domestically, as has been done in other countries, by recycling spent 
nuclear fuel for use in fast reactors, therefore drastically reducing 
the amount of high-level radioactive waste to be placed in a permanent 
geologic repository. The Department of Energy continues to fund 
research and development to ensure safety and reduce the waste 
associated with nuclear power.

Q3.  Regarding National Science Foundation: I am glad to see the 
Education and Human Resources division is set for increases greater 
than inflation. I am also pleased the agency is investing in activities 
to broaden participation in science, technology, engineering and math. 
However, the K-12 program funding would see a nine percent decrease 
from the FY07 level and flat funding relative to the President's FY07 
request. This is a problem, and I've said many times it is important 
for NSF to reach kids at a young age. What programs will be most 
affected by the K-12 decrease?

A3. The National Science Foundation has several programs which support 
K-12 education. Within the Directorate for Education and Human 
Resources, Discovery Research K-12 and the Math and Science 
Partnerships programs are the Agency's primary programs aimed at 
improving K-12 education. The President's FY 2008 budget request 
includes $107 million for the Discovery Research K-12 program, a level 
equal to the FY 2007 request, but $12.08 million over the FY 2006 
actual level. Given that the FY 2007 Joint Continuing Resolution 
provides no increases for the EHR budget, the FY 2007 funding level for 
DRK-12 is below the President's budget request. The President's FY 2008 
budget includes $46 million for the Math and Science Partnerships (MSP) 
Program, which will provide $30 million for new awards in FY 2008.
    Additional programs supporting K-12 education include the Advanced 
Technological Education (ATE) Program, managed by the Division of 
Undergraduate Education (DUE), which provides support to high school 
students engaged in NSF-supported technician training programs. 
Similarly, the National STEM Digital Library, also managed by DUE, 
provides educational resources to teachers and students at all levels 
and in formal and informal settings. The Informal Science Education and 
Outreach program, while not exclusively a K-12 program, supports the 
development films, museum exhibits and activities focused on the needs 
and interests of the entire population, including K-12 students and 
their teachers. And K-12 education activities are not limited to 
programs managed by the Education and Human Resources Directorate. Many 
research grants funded through the R&RA budget also include K-12 
education and outreach activities, including teacher professional 
development programs. All of these programs, and others, contribute to 
advancing K-12 education, which we agree is a high priority.
    The FY 2008 request for Informal Science Education is $66 million, 
level with the FY 2007 request but an increase of $3.35 million over 
the FY 2006. And the FY 2008 request for the Division of Undergraduate 
Education includes $51.62 million for the ATE program and $16.5 million 
for the NDSL program, increases over the FY 2007 request of $5.12 
million and $500,000, respectively. Therefore, I believe that the 
President's FY 2008 budget includes significant increases in funding 
for K-12 education through a variety of programs, including MSP, ATE, 
NDSL and the R&RA budget line.
    We look forward to the results of the Academic Competitiveness 
Council's efforts to inventory and evaluate the success of current STEM 
education programs across the Federal Government so that in the future, 
we can focus our investments on programs that are proven effective or 
that at least have a clear plan for using rigorous evaluation to 
understand the impact of educational activities and interventions on 
student learning.

Q4.  Finally, the Advanced Technology Program and Manufacturing 
Extension Partnership are two initiatives at the National Institute for 
Standards and Technology that are important for innovation and 
sustaining small manufacturers.

     Why does the Administration propose eliminating ATP and cutting 
MEP by 56 percent, when a bipartisan Congress insists on protecting 
these programs?

A4. The President's request will ensure that funding goes to vital 
basic research to strengthen the Nation's innovation enterprise vital 
to manufacturing--especially in the areas of physical sciences, 
engineering, computing, and nanotechnology--instead of subsidizing 
research and consulting services that should be funded by private 
industry. Creating an innovation environment by supporting basic 
research has the highest payoff for all of society, including industry. 
Basic research results which can be used by a variety of researchers in 
academia and industry are much more important to economic development 
than are subsidies, through the Advanced Technology Program (ATP) or 
Manufacturing Extension Partnership (MEP) program, that benefit 
particular firms and their shareholders. Large shares of ATP funding 
have gone to major corporations that could well fund, and have well 
benefited from, investments in these technologies. Past reviews by the 
Government Accountability Office have found that ATP-funded projects 
are often similar to those conducted by firms not receiving such 
subsidies. In addition, the 2007 House Floor and Senate committee bills 
would have terminated ATP.
    The 2008 Budget request provides $46 million for the Manufacturing 
Extension Partnership program, equal to the 2007 Budget. MEP Centers 
provide manufacturing firms with consulting services that are also 
available through private entities. Given the benefits reported by MEP 
clients, it is reasonable to have these clients share a larger 
proportion of the cost of these services. The FY 2008 Budget request 
would maintain a network of MEP centers that are funded according to 
their performance and need, and would encourage these Centers to be 
more efficient by reducing their overhead costs, including high 
marketing costs. Centers could also ask MEP clients to cover more of 
the cost of the services through modestly increased fees.

Questions submitted by Representative Daniel Lipinski

Department of Energy

Energy Efficiency and Renewable Energy (EERE):

Q1.  Geothermal--A report released in January by the Massachusetts 
Institute of Technology found that geothermal energy could supply a 
substantial portion of the United States' future electricity 
requirements with minimal environmental impact and probably at 
competitive prices. Given the promise of this often overlooked 
technology, why is the Administration trying to completely cut all R&D 
into its potential?

A1. Please see response to Chairman Gordon's tenth question.

Q2.  Hydrogen--Of all renewable energy technologies, R&D for hydrogen 
receives the largest funding allocation in the President's budget 
request. This also completes the President's commitment to $1.2 billion 
in hydrogen funding over five years. Is it expected that funding for 
Hydrogen will continue at these levels, or will resources now be 
directed to other areas of energy research with nearer-term 
implications?

A2. While hydrogen technology continues to represent an important area 
for energy research and development, decisions about funding levels 
beyond FY 2008 have not been determined.

Q3.  The Industrial Technologies Program, which directly aids many 
small- to medium-sized businesses in the Chicagoland area and 
throughout the country in identifying technology areas in which large 
potential for energy savings may be realized, is facing the chopping 
block once again. Additionally, this budget proposes gutting the 
National Renewable Energy Laboratory. How can you justify these cuts 
when the President cited technology as the savior to breaking our oil 
addiction in his State of the Union address last year?

A3. To improve operating efficiency, DOE is shifting the management of 
some subcontracted projects from the National Renewable Energy 
Laboratory (NREL) to the Golden Field Office and the National Energy 
Technology Lab. This shows up in the funding line but does not 
represent a cut in funding for research conducted at NREL itself. The 
FY 2008 request for Industrial Technologies ($46M) is essentially the 
same as in the FY 2007 request. DOE is focusing additional funding on 
priority programs in the Advanced Energy Initiative, such as solar 
energy and biofuels.

Office of Science:

Q4.  The President is proposing to develop three Bioenergy Research 
Centers through the Office of Science at DOE--up from two proposed in 
the original plan. The State of Illinois is blessed with not only an 
abundance of rich cropland yielding vast acreages of corn and the 
potential for switchgrass, but also numerous first-rate Universities, 
Laboratories, and Companies that are expanding our knowledge in the 
field of alternative energy. The University of Illinois at Urbana-
Champaign, in collaboration with Argonne National Laboratory, 
Northwestern University, the University of Chicago, the University of 
Illinois at Chicago, Archer Daniels Midland, and others submitted a 
proposal recently for the Bioenergy Research Institute. These 
institutions bring together the scientific expertise and resources 
needed to develop new energy sources and reduce our reliance on 
imported oil. What technical or scientific areas will the third 
research center investigate that are not being addressed by the other 
two? We think that the UIUC application is good, and a Center in the 
Midwest would be really invaluable. Can you comment on a timeframe on 
when a center will be selected?

A4. The third Bioenergy Research Center will increase the overall 
research capability of the DOE Genomes-To-Life (GTL) program to address 
barriers to commercial feasibility of key energy technologies. In its 
2006 review of the GTL program, the National Academies recommended that 
GTL facilities focus not on particular technologies, but on fundamental 
research that underpins bioenergy technologies. Consistent with this 
recommendation, each of the three Bioenergy Research Centers will have 
long- and intermediate-term visions in bioenergy research, with 
sufficient flexibility to allow adjustments in research directions in 
response to promising developments. These Centers are envisioned to 
serve as catalysts for bioenergy-related research supported by the 
broader GTL program. The Office of Science will select and initiate two 
Bioenergy Research Centers in FY 2007 and will add and support a third 
Center in FY 2008.

Q4a.  Flat funding for DOE science in recent years has forced the 
Office of Science to scale back the degree to which it is able to make 
extramural grant awards. Of course, because it operated large user 
facilities--certainly an important function of the DOE--it is the core 
research programs and extramural grants that suffer the most. The 
reduction in DOE extramural research funding is particularly noticed in 
physics departments and certainly fields of engineering at our 
universities. How will the funding increases that are proposed in the 
President's budget for the DOE Office of Science affect DOE ability to 
increase the number of grants it is able to make to colleges and 
universities? How is it expected to impact DOE grant award success 
rates?

A4a. In recent years, nearly 50 percent of the Office of Science's 
research funding has been awarded to colleges, universities and private 
institutes. In the FY 2008 budget, additional funding has been provided 
for a number of Office of Science programs that fund extramural 
research institutions as well as scientific user facilities and 
national laboratories. The exact allocation of these funds and the 
grant award success rates will depend on the results of competitive 
solicitations and the research needs of individual programs.

NIST

Manufacturing Extension Partnership (MEP)

Q5.  Since 2001, we have lost 2.9 million manufacturing jobs and last 
year alone we lost another 110,000 manufacturing jobs. These jobs are 
high-skill, high-wage jobs that on average pay 23 percent more than the 
national average and are the backbone of communities across the 
country. Last year, the Administration announced its American 
Competitiveness Initiative during the State of the Union address. From 
my point of view, competitiveness is about job creation and retention. 
I would like to give you this opportunity to explain to our 
constituents and small manufacturers across the country why the 
Administration proposed to gut the Manufacturing Extension Partnership 
program that has a proven track record in creating and retaining good 
jobs and growing the economy.

A5. NIST meets the Nation's highest priorities by focusing on high 
impact research and investing in the capacity and capability of MST's 
user facilities and labs. This emphasis is validated by the high rate 
of return to the Nation that the NIST labs already have demonstrated. 
Nineteen retrospective studies of economic impact show that, on 
average, NIST labs generated a benefit-to-cost ratio of 44:1 to the 
U.S. economy. The President's request will ensure that funding goes to 
vital basic research to strengthen the Nation's innovation enterprise 
vital to manufacturing--especially in the areas of physical sciences, 
engineering, computing, and nanotechnology--instead of subsidizing 
research and consulting services that should be funded by private 
industry. Creating an innovation environment by supporting basic 
research has the highest payoff for all of society, including industry. 
Basic research results which can be used by a variety of researchers in 
academia and industry are much more important to economic development 
than are subsidies, through the Manufacturing Extension Partnership 
(MEP) program, that benefit particular firms and their shareholders.
    MEP Centers provide manufacturing firms with consulting services 
that are also available through private entities. Given the benefits 
reported by MEP clients, it is reasonable to have these clients share a 
larger proportion of the cost of these services. The FY 2008 Budget 
request would maintain a network of MEP centers that are funded 
according to their performance and need, and would encourage these 
Centers to be more efficient by reducing their overhead costs, 
including high marketing costs. Centers could also ask MEP clients to 
cover more of the cost of the services through modestly increased fees.

Q6.  The 2005 MEP Assessment found $6.3 billion in increased/retained 
sales; $2.2 billion in modernization investment; and 53,000 jobs 
created or retained. These documented results represent only a small 
portion of the MEP's total impact. We get these impressive results from 
a federal investment of only $104 million. What other federal programs 
to support manufacturers show a similar documented return on 
investment? Given the MEP's success rate and that small- and medium-
sized manufacturers are struggling in the face of global competition, 
why does the Administration want to cut the MEP budget by more than 50 
percent?

A6. Please refer to the response above.

NOAA

Q7.  Despite the findings released in last week's Working Group I 
report of the UN's Intergovernmental Panel on Climate Change, the 
budget proposal cuts funding for NOAA's Climate Change Science Program 
(CCSP) by 7.4 percent. This is the fourth year in a row for steep cuts 
to climate science. How can you justify this cut when even the 
President recognized the problem of climate change in his State of the 
Union address only one month ago?

A7. The 2007 CCSP figures included in the 2008 President's Budget were 
based on estimates of anticipated appropriations for the CCSP agencies 
at the time the Budget was submitted. Actual appropriations, made after 
the 2008 Budget was submitted, varied from those estimates; therefore, 
the 2007 CCSP figures provided in the 2008 Budget were not accurate. In 
addition, the 2008 CCSP funding data were also not final estimates. The 
Administration continues its strong support for the Climate Change 
Science Program in 2008. Final estimates of government-wide 
expenditures for 2007 enacted and 2008 proposed funding levels will be 
available in the FY 2008 Federal Climate Change Expenditures Report, 
which is expected to be published in early May.

National Science Foundation

Q8.  Nanotechnology--The FY 2008 budget request for the National 
Nanotechnology Initiative (NNI) is $1.45 billion, which is roughly four 
percent above the FY 2007 funding estimate. As you are aware, there 
have been many calls from academia and industry for a more robust and 
more tightly focused research effort on the environmental, health and 
safety (EHS) aspects of nanotechnology. The funding allocated for EHS 
research under the NNI program has been about three percent of the 
total program, and some outside groups have claimed this is an overly 
optimistic estimate. How does the FY 2008 budget for the NNI reflect 
these repeated calls for significant growth of funding for research in 
this area?

A8. Please see response to Chairman Gordon's seventh question.

Q9.  Overall funding for K-12 programs in the FY08 request is flat 
compared to the President's FY07 request. As an engineer and former 
educator, I understand the critical importance of STEM education to our 
children, and the need to support this if we want to maintain America's 
competitive and innovative edge in the world. Can you elaborate on why 
you have not put more emphasis on K-12 STEM education, to ensure that 
we are raising the next generation of engineers, scientists, and 
teachers?

A9. Please see response to Representative Johnson's third question.

Q10.  Last year, the success rates at NSF dipped to approximately 21 
percent, the lowest success rate in approximately 15 years. Moreover, 
there are concerns that to increase success rates at NSF will attempt 
to limit the number of proposals that any one institution can submit to 
large grant solicitations, effectively placing the burden of peer 
review on universities who are being forced to conduct their own 
internal proposal reviews. Two questions: First, what are the success 
rates expected to be with the increased NSF funding levels proposed in 
the budget? Second, do you support institutions limitations on the 
number of grant awards that can be submitted by a given university, 
even though the quality of two proposals submitted from one institution 
might be better than one submission made from another institution?

A10. Success rates are a function of the number of proposals submitted 
versus the available funding for a given program. Although it is 
assumed that an increase in budget would result in an increase in 
proposal success rates, we have seen during the doubling of the NIH 
budget that an increase in budget can generate enthusiasm and draw 
people to a field, having the ultimate effect of further reducing 
success rates. Therefore, while success rates can be informative of 
important trends, such as oversupply or undersupply of scientists in a 
particular field, budget decisions should not be based solely on 
success rates since both an increase and a decrease in funds could 
equally result in reduced success rates. I would expect that an 
increase in the NSF's budget might have the initial effect of 
increasing success rates, but could result in an overall further 
decline in success rates as more scientists are attracted to well-
funded fields of research. NSF can also see an increase in proposals 
from established researchers as mission agencies (in particular NIH and 
Defense) adjust their priorities and the focus of their extramural 
research portfolios.
    I do not believe that NSF should artificially increase success 
rates by limiting the number of grant proposals that are submitted by 
individual universities. However, I am sympathetic that as NSF's budget 
increases and more proposals are received for various reasons, there 
are additional stresses on already taxed personnel, management, and 
information technology systems which will all need to be addressed. I 
support NSF's interest in looking for new ways to streamline the 
proposal review process, such as through the use of pre-proposals. At 
present, there are over 350 active funding opportunities at NSF to 
which proposers may submit proposals. Of these, 31 (less than ten 
percent) impose some sort of limit on proposal submissions from a 
single institution. One of the primary reasons that a program may 
impose a limit on the number of submissions from a single institution 
is that investing in building large infrastructure, developing broad 
partnerships, and establishing research centers ought to be done in the 
context of an institution's longer-term strategic priorities, to ensure 
that these efforts will be sustained beyond the life of the NSF award. 
In addition, for programs with very broad appeal, imposing 
institutional submission limitations helps to broaden participation to 
include more, diverse institutions. Artificially increasing success 
rates is not one of the reasons for limiting proposal submissions.

Department of Defense

Q11.  In preparation for the Administration's FY08 budget, last summer 
you [Dr. Marburger] and OMB Director Rob Portman issued a memorandum on 
the Administration's R&D budget priorities. In that memo, you noted the 
importance of continuing the American Competitiveness Initiative 
investments in the NSF, the DOE's Office of Science, and NIST. You also 
specifically noted the ``high-impact basic and applied research of the 
Department of Defense should be a significant priority.'' The Pentagon 
apparently did not get or ignored the memorandum, because its requested 
funding level for DOD basic research is 8.7 percent below the FY07 
funding level and only 0.4 percent above the FY07 budget request. For 
that matter, the FY08 budget request for DOD science and technology 
accounts calls for a 19.2 percent cut in funding from the FY07 funding 
level and 2.7 percent below the FY07 budget request.

      First, can you explain why DOD research is not part of the 
Administration's American Competitive Initiative? Second, regardless of 
whether defense research is part of the ACI, why, despite all the 
rhetorical support for defense research, aren't the basic research 
accounts increasing?

A11. Unfortunately, the research budget picture at the Department of 
Defense is severely distorted by earmarks, which account for all of the 
19 percent cut you refer to. In FY 2007, there were over 600 DOD 
research earmarks (6.1 and 6.2) totaling $1.2 billion. This research is 
not merit reviewed and is often outside of DOD's mission. For instance, 
Congress directed DOD to fund research on a wide range of diseases 
including diabetes, neurofibromatosis (a genetic disorder of the 
nervous system), and childhood cancer. Congressional adds in DOD's 
budget for medical research projects total about $500 million in 2007 
alone. While research on these diseases is very important, these 
diseases are not unique to the U.S. military and the research can be 
better selected, carried out and coordinated within civil medical 
research agencies, without disruption to the military mission. At the 
same time, the intrusion of earmarking into the peer-review processes 
of civilian medical research agencies would have a significant 
detrimental impact on funding the most important and promising 
research.
    It is true that DOD research helps to drive innovation and makes 
valuable contributions toward the goals of the ACI. As the ACI policy 
booklet stated: ``The Department of Defense. . .provides strong support 
for the physical sciences and engineering, including projects with both 
commercial and military applications (``dual-use'' technologies). Past 
DOD research has resulted in revolutionary technological capabilities 
such as radar, digital computers, wireless mobile communications, 
lasers, fiber optics, composite materials, the Internet (and other 
``packet switched'' networks), and satellite navigation.'' This 
research has grown by nearly $850 million since 2001. DOD will continue 
to play an important role in the American Competitiveness Initiative. 
The ACI does not place all agencies important to its goals on a budget-
doubling track because the current budget status of agencies varies 
with respect to the challenges, opportunities, and capacities related 
to long-term economic competitiveness. DOD's current nearly $6 billion 
research budget positions it well relative to other key ACI agencies to 
play its historical role in these areas, especially if currently 
earmarked funds become available for priority research areas.


</pre></body></html>
